 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


  NOT ALL COMMUNITY SERVICES
 BLOCK GRANT COSTS CLAIMED ON
 BEHALF OF THE CARBON COUNTY
COMMUNITY ACTION COMMITTEE FOR
   THE PERIOD OCTOBER 1, 2008,
  THROUGH SEPTEMBER 30, 2010,
        WERE ALLOWABLE

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        August 2013
                                                       A-07-11-02766
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. 105-285, reauthorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. Under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, ACF received an additional $1 billion for the CSBG program; these
additional funds were for services and programs provided during the period July 1, 2009, through
September 30, 2010.

In Wyoming, the Department of Health (State agency) acts as the lead agency for purposes of
carrying out State-level activities for the CSBG program. The State agency is responsible for
evaluating the CSBG program applications from existing and potential CAAs, awarding grant
funds to approved CAAs, and monitoring the CAAs for compliance with program regulations.
The State agency submits quarterly fiscal reports to ACF for the CSBG program based on
quarterly expenditure information from CAAs.

Carbon County Community Action Committee (Carbon County) is a local governmental entity
that awards CSBG funds to subcontractors to provide educational, emergency, employment, and
nutritional services to low-income families and individuals residing in Carbon County,
Wyoming. Our review covered $302,390 in CSBG funds and CSBG Recovery Act funds that
the State agency claimed for awards made to Carbon County for the period October 1, 2008,
through September 30, 2010.

Federal regulations (45 CFR § 74.21(b)) require that each CAA’s financial management system
provide (1) accurate, current, and complete disclosure of the financial results of each program;
(2) records that adequately identify the source and application of Federal funds; (3) effective
control over and accountability for all funds, property, and other assets to ensure that they are
used solely for authorized purposes; (4) procedures for determining the allowability of costs; and
(5) accounting records that are supported by source documentation.

OBJECTIVE

Our objective was to determine whether selected CSBG and CSBG Recovery Act costs claimed
by the State agency on behalf of Carbon County were allowable under the terms of the grants
and applicable Federal requirements.




                                                i
SUMMARY OF FINDINGS

Not all of the CSBG and CSBG Recovery Act costs claimed by the State agency on behalf of
Carbon County were allowable under the terms of the grants and applicable Federal regulations.
Of the $302,390 in CSBG funds and CSBG Recovery Act funds that the State agency claimed on
behalf of Carbon County, $75,482 was allowable under the terms of the CSBG and CSBG
Recovery Act grants and applicable Federal requirements. However, $143,588 in CSBG funds
and CSBG Recovery Act funds was not allowable under the terms of the grants and applicable
Federal regulations. These costs were unallowable for the reasons detailed below.

Carbon County claimed $141,759 ($61,999 in CSBG funds and $79,760 in CSBG Recovery Act
funds) that was unallowable because Carbon County’s subcontractors distributed these funds to
recipients without adequately supporting the subcontractors’ eligibility determinations. Some of
these unallowable costs had additional deficiencies that would have led to recommended
disallowances of those costs. Specifically, Carbon County:

   •   transferred grant funds between subcontractor programs without obtaining prior written
       approval from the State agency,

   •   claimed costs that were unallowable because the subcontractor expenditures associated
       with these funds were inadequately documented,

   •   claimed costs that were unallowable because they were associated with entertainment,

   •   unallowably charged costs to the grant awards for expenditures that in previous years had
       been paid by other funding sources, and

   •   claimed fringe benefit costs charged by a subcontractor that were unallowable because
       they were not associated with the direct costs for these grant awards.

Carbon County claimed an additional $1,829 ($405 in CSBG funds and $1,424 in CSBG
Recovery Act funds) that was unallowable due to a variety of errors, including duplication of
claims, lack of documentation, and services that were claimed even though they had previously
been funded under another funding source.

Carbon County did not have written policies and procedures to ensure that (1) its subcontractors
collected and maintained documentation to support their recipient eligibility determinations and
(2) it and its subcontractors claimed costs in accordance with Federal requirements and the terms
of the grant. In addition, Carbon County’s financial management policies and procedures were
not adequate to prevent overpayments for some claims. As a result, the State agency overstated
its claim to the CSBG and CSBG Recovery Act grants by a total of $143,588 ($141,759 +
$1,829).

Because our limited scope review identified unallowable costs to the extent summarized above,
some of the other costs are potentially unallowable. Although we did not perform detailed



                                                ii
testing of costs totaling $83,320, we are referring those costs to ACF and the State agency for
resolution.

We also noted internal control weaknesses related to Carbon County’s:

   •   monitoring of subcontractors,
   •   tracking of Recovery Act funds,
   •   participation by members at Board of Directors (Board) meetings, and
   •   bank deposits in excess of Federal Deposit Insurance Corporation (FDIC) limits.

Carbon County’s policies and procedures did not ensure that it and its subcontractors conformed
to the terms of the grants and applicable Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment to ACF of $143,588 for costs claimed by Carbon County
       that did not conform to the terms of the CSBG and CSBG Recovery Act grants and
       applicable Federal requirements,

   •   work with ACF to determine whether the eligibility determinations associated with the
       $83,320 were correctly made and make a financial adjustment to ACF of any unallowable
       costs, and

   •   ensure that Carbon County either establishes or strengthens policies, procedures, and
       related internal controls regarding eligibility determinations, documentation, funds
       management, and oversight and monitoring of the CSBG program.

CARBON COUNTY COMMUNITY ACTION COMMITTEE COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

Carbon County Community Action Committee Comments

In written comments on our draft report, Carbon County agreed in general that monitoring and
policies and procedures could be improved and agreed with our third recommendation, but it
generally disagreed with the specifics of our findings related to our other two recommendations.

For our finding on inadequately supported eligibility determinations, Carbon County said that to
its knowledge, its subcontractors were collecting and maintaining the required information.
Carbon County also stated that it had requested and received approval from the State agency to
transfer grant funds between subcontractor programs. Carbon County said that it had adequate
supporting documentation for its expenditures and that the entertainment costs that we had
questioned were allowable as educational events. In addition, Carbon County said that grant
funds were not supplanted with funds from other sources and that it had misunderstood Federal
regulations when allocating fringe benefits. In the context of the procedural aspects of our

                                                iii
findings and recommendations, Carbon County said that it had hired a consultant to provide
periodic monitoring of all subcontractors and that it had requested training from the State agency
to assist the Board in administering grant funds.

Regarding the internal control weaknesses that we identified, Carbon County reiterated that it
would welcome State agency monitoring to ensure that it was correctly administering grant
funds. Carbon County also stated that CSBG funds were separately tracked from other county
funds and Recovery Act funds, and added that our finding on the separate accounting of
Recovery Act funds was an accounting error rather than any actual misuse of funds.

Regarding Board member participation, Carbon County said that it had made numerous attempts
to contact absent Board members and pointed out that because Board members come from a
small community and serve without compensation, it is difficult to recruit new members.
Finally, Carbon County stated that its bank accounts were insured to the FDIC limit and that any
balances in excess of that limit were collateralized by the bank.

Our draft report included an internal control finding related to conflicts of interest. In its
comments, Carbon County said that it felt that it was important to continue providing services to
the community as long as Board members declared conflicts of interest and did not vote on
matters with which they had a conflict. Our draft report also included another internal control
finding related to segregation of duties. Carbon County disagreed with this finding and provided
additional information on the issue.

Carbon County concluded by stating that it would be “unfair and unjust” for any repayment to be
required, and requested that, if a financial adjustment were to be required, Carbon County be
allowed to apply any future allocation of CSBG funds to the adjustment.

Office of Inspector General Response

After reviewing Carbon County’s comments, we removed our findings regarding conflicts of
interest and segregation of duties. While acknowledging Carbon County’s efforts to improve
policies and procedures and its monitoring of subcontractors, we maintain that our other findings
and recommendations remain valid. (Based on the State agency’s comments, for our final report
we reduced the amount of our questioned costs and modified our first recommendation
accordingly. Thus, some of the dollar amounts conveyed in this final report differ from the
amounts that appeared in the draft reports that we gave to both Carbon County and the State
agency for comment.)

We disagree that Carbon County’s CSBG claims and expenditures were adequately supported,
that it had requested and received prior approval from the State agency to transfer funds between
budget lines, and that it had not supplanted other funding sources with Recovery Act funds. We
also disagree that Carbon County’s Board adequately represented all groups in the community.
Regarding the uninsured bank deposits, we note that accounts collateralized by a bank are at
higher risk of loss in the event of a bank failure than are accounts that are fully insured by the
FDIC.



                                                iv
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our third
recommendation but did not concur with our first two recommendations. With respect to the
specific findings that contributed to our first recommendation, the State agency agreed with our
finding regarding $727 of unallowable fringe benefit costs charged by a subcontractor to the
CSBG Recovery Act award and with our finding that another subcontractor charged $129 to the
CSBG Recovery Act award for dental services that had previously been paid by the Medicaid
program.

The State agency disagreed with our other findings regarding inadequately supported eligibility
determinations, additional deficiencies at the subcontractor level, and other unallowable
payments. For these findings, the State agency generally described the services funded by the
CSBG and CSBG Recovery Act awards and, for several of the findings, stated that several of the
subcontractors in question had verified that recipient income did not exceed the 200-percent
poverty limit threshold that the State agency established after it published the Federal fiscal year
2010 CSBG State plan. For several of our findings on the lack of documentation to support
eligibility determinations, the State agency either gave reasons why recipient names were not
documented or said that the subcontractors maintained the necessary documentation on site.

The State agency also disagreed with our second recommendation. Regarding the $83,320 in
potentially unallowable costs from one subcontractor—costs that we set aside for the State
agency to resolve in coordination with ACF—the State agency described the subcontractor’s
recipient application process and the State-level income eligibility verification process. The
State agency added that recipient names were not attached to invoices to protect the recipients’
privacy.

The State agency concurred with our third recommendation and described corrective actions that
it had taken or planned to take. With respect to the internal control weaknesses that contributed
to this recommendation, the State agency agreed with our first finding but disagreed with our
other three findings. In its statements of disagreement, the State agency essentially raised the
same issues—with respect to separate accounting of Recovery Act funds, Board member
participation, and uninsured bank accounts—that Carbon County had raised in its comments on
our draft report. Regarding Board member participation, the State agency added that Carbon
County had implemented changes to its process and was actively seeking new members.
Regarding uninsured bank accounts, the State agency cited Carbon County’s statement that its
bank accounts were insured and “… amounts in excess are collateralized by the bank.” The
State agency also summarized the amounts that Carbon County held in its accounts and,
summing those amounts, concluded that “… it seems unlikely that the accounts would ever be
over the $250,000 limit.”

The State agency’s comments included technical comments related to Carbon County’s formal
name and its status as a nonprofit CAA, the relevant Federal cost principles, the grant periods for
which CSBG and CSBG Recovery Act funds were allocated, and the amounts of that funding.




                                                 v
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments regarding eligibility determinations and the grant
award requirements, we accepted $21,433 in costs for three subcontractors (Boys & Girls Club,
Western Wyoming Family Planning, and Community Resource Center) that our draft reports had
questioned. We revised the amounts of our questioned costs and the associated first
recommendation accordingly. Carbon County’s agreement with one subcontractor (Boys &
Girls Club) provided for funding for a position to provide direct services to youth for computer
literacy and Internet safety classes. After further review of the award agreement and
documentation, we adjusted this finding, thus accepting costs totaling $16,909: $15,000 for the
funding of the position, $1,186 for supplies purchased for the youth development program, and
$723 for the computer literacy and Internet safety training classes. We also accepted $2,940 for
a second subcontractor (Western Wyoming Family Planning) for supplies. For a third
subcontractor (Community Resource Center), we accepted $1,584 in costs claimed for the
publication of a Resources Directory.

We maintain that our remaining findings and recommendations are still valid. Specifically,
Carbon County is required to maintain documentation to support its eligibility determinations.
Although the State agency’s comments described some subcontractors’ recipient income
verification processes and discussed the maintenance of documentation, Carbon County was not
able, either during our fieldwork or afterward, to provide documentation demonstrating that the
recipients of the services in question met the eligibility requirements.

We maintain that all of the internal control weaknesses that we identified remain valid. Nothing
in the State agency’s comments caused us to change our finding that Carbon County’s CSBG
Recovery Act expenditures were not separately tracked and reported. Regarding Board member
participation, we continue to point out, as we did in our response to Carbon County’s comments,
that the consistent absences of a significant number of Board members from Board meetings
constituted a violation of Carbon County’s own bylaws. Finally, we disagree with the State
agency concerning the uninsured bank account. As we stated in our response to Carbon
County’s similar comments, accounts collateralized by a bank are at higher risk of loss in the
event of a bank failure than are accounts that are fully insured by the FDIC. Further, although
the State agency said that it would be unlikely that Carbon County’s bank accounts would ever
exceed the FDIC limit, we note that during our fieldwork we identified at least two separate
occasions when that in fact happened.

After reviewing the technical comments that the State agency included in its response to our
draft report, we revised our final report to clarify Carbon County’s status as a local governmental
entity and to clarify the applicability of Federal cost principles to governmental entities, grantees,
and subcontractors. We did not, however, make changes based on the State agency’s other
technical comments because the documentation that Carbon County provided to us supported our
report’s description of Carbon County’s grant periods and the amounts of funding that we
reviewed.




                                                  vi
                                                  TABLE OF CONTENTS


INTRODUCTION .............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Community Services Block Grant Program ............................................... 1
              Wyoming Department of Health ................................................................. 1
              Carbon County Community Action Committee ......................................... 1
              Federal Requirements ................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
               Objective ..................................................................................................... 2
               Scope ........................................................................................................... 2
               Methodology ............................................................................................... 3

FINDINGS AND RECOMMENDATIONS....................................................................... 4

          UNALLOWABLE COSTS ................................................................................... 5
              Inadequately Supported Eligibility Determinations.................................... 5
              Additional Deficiencies at Subcontractor Level ......................................... 7

          OTHER UNALLOWABLE PAYMENTS ............................................................. 9
               Federal Requirements ................................................................................. 10
               Unallowable Claims Related to Community Services
                 Block Grant Awards ............................................................................... 10

          POTENTIALLY UNALLOWABLE COSTS ........................................................ 10

          INADEQUATE INTERNAL CONTROLS ........................................................... 11
               Inadequate Monitoring ................................................................................ 11
               No Separate Accounting of Recovery Act Funds ....................................... 12
               Inadequate Board Member Participation .................................................... 12
               Uninsured Bank Deposits ........................................................................... 13

          RECOMMENDATIONS ........................................................................................ 13

          CARBON COUNTY COMMUNITY ACTION COMMITTEE COMMENTS
            AND OFFICE OF INSPECTOR GENERAL RESPONSE............................... 13
              Inadequately Supported Eligibility Determinations.................................... 14
              Lack of Policies and Procedures ................................................................. 15
              Unapproved Transfers of Grant Funds ....................................................... 15
              Inadequate Documentation of Expenditures ............................................... 16
              Unallowable Entertainment Costs............................................................... 16
              Costs Previously Paid by Other Funding Sources ...................................... 16
             Inconsistent Allocations to Community Service Block Grant
                Recovery Act Funding ........................................................................... 17
             Inadequate Monitoring ................................................................................ 17
             No Separate Accounting of Recovery Act Funds ....................................... 18
             Inadequate Board Member Participation .................................................... 18
             Uninsured Bank Deposits ........................................................................... 19
             Specific Comments on Office of Inspector General Recommendations .... 19

    STATE AGENCY COMMENTS AND OFFICE OF
     INSPECTOR GENERAL RESPONSE ............................................................... 20
         Inadequately Supported Eligibility Determinations.................................... 20
         Additional Deficiencies at Subcontractor Level ......................................... 22
         Other Unallowable Payments ..................................................................... 23
         Potentially Unallowable Costs .................................................................... 23
         Inadequate Internal Controls ....................................................................... 24
         Technical Comments .................................................................................. 25

APPENDIXES

    A: ADDITIONAL DEFICIENCIES BY SUBCONTRACTOR

    B: CARBON COUNTY COMMUNITY ACTION COMMITTEE COMMENTS

    C: STATE AGENCY COMMENTS




                                                           i
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (COATES Act), P.L. 105-285, reauthorized the Community Services Block Grant (CSBG)
program to provide funds to alleviate the causes and conditions of poverty in communities.
Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,000 local Community Action
Agencies (CAA) that create, coordinate, and deliver programs and services to low-income
Americans. The CAAs provide services and activities addressing employment, education,
housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program; these
additional funds were for services and programs provided during the period July 1, 2009, through
September 30, 2010. For this period, the Recovery Act made provisions for the expansion of
CSBG-related services to those individuals who are within 200 percent of the Federal poverty
level.

Wyoming Department of Health

In Wyoming, the Department of Health (State agency) acts as the lead agency for purposes of
carrying out State-level activities for the CSBG program. The State agency is responsible for
evaluating the CSBG program applications from existing and potential CAAs, awarding grant
funds to approved CAAs, and monitoring the CAAs for compliance with program regulations.
The State agency submits quarterly fiscal reports to ACF for the CSBG program based on
quarterly expenditure information from CAAs.

Carbon County Community Action Committee

Carbon County Community Action Committee (Carbon County) is a local governmental entity
that awards CSBG funds to subcontractors to provide educational, emergency, employment, and
nutritional services to low-income families and individuals residing in Carbon County,
Wyoming. The State agency awarded CSBG funds and CSBG Recovery Act funds to Carbon
County, which in turn awarded the funds to 11 subcontractors and 8 daycare providers, for the
provision of services to the target population. During Federal fiscal years (FY) 2008 through
2010, the State agency awarded Carbon County $302,390 ($165,346 in CSBG funds and a
Recovery Act grant award totaling $137,044). (For this report we will use “CSBG funds” and
“CSBG Recovery Act funds” to differentiate the two types of grants.)




                                               1
Federal Requirements

Section 678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that
cost and accounting standards of the Office of Management and Budget (OMB) apply to a CAA.
Local governmental entities are subject to 45 CFR part 74. The regulations at 45 CFR § 74.27(a)
state that the allowability of costs will be determined in accordance with 2 CFR part 225 (OMB
Circular A-87), Cost Principles for State, Local and Indian Tribal Governments. 1

Federal regulations (45 CFR § 74.21(b)) require that each CAA’s financial management system
provide (1) accurate, current, and complete disclosure of the financial results of each program;
(2) records that adequately identify the source and application of Federal funds; (3) effective
control over and accountability for all funds, property, and other assets to ensure that they are
used solely for authorized purposes; (4) procedures for determining the allowability of costs; and
(5) accounting records that are supported by source documentation.

This review is one of a series of Office of Inspector General reviews to provide oversight of
Recovery Act funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG and CSBG Recovery Act costs claimed
by the State agency on behalf of Carbon County were allowable under the terms of the grants
and applicable Federal requirements.

Scope

ACF awarded the State agency (on behalf of Carbon County) $304,866 in CSBG and CSBG
Recovery Act funds for the period October 1, 2008, through September 30, 2010. After
receiving the award funds, Carbon County returned $2,476 of its CSBG Recovery Act funds to
the State agency. Therefore, our review covered $302,390 in CSBG funds and CSBG Recovery
Act funds that the State agency claimed for awards made to Carbon County for this period.

We did not review an additional $33,600 that the State agency referred to as “Set-Aside” funding
because these funds were not part of the grant award agreements for the CSBG and CSBG
Recovery Act funds.

We conducted a limited review of Carbon County’s financial transactions and systems related to
the CSBG and CSBG Recovery Act programs and related policies and procedures. We did not
perform an overall assessment of Carbon County’s internal control structure. Rather, we
reviewed only the internal controls that pertained directly to our objective.

1
 Similar language appears in 2 CFR part 230 (OMB Circular A-122), Cost Principles for Non-Profit Organizations.
(The State agency and Carbon County follow criteria applicable for local governmental entities while the
subcontractors follow criteria for nonprofit organizations).



                                                       2
We performed fieldwork at Carbon County’s administrative office in Rawlins, Wyoming, from
July 2011 through March 2012.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   reviewed the State agency’s CSBG State plans for FYs 2008 through 2010, and the
        CSBG Recovery Act State plan for the grant period of July 1, 2009, through
        September 30, 2010;

    •   confirmed that Carbon County was not excluded from receiving Federal funds;

    •   reviewed and analyzed Carbon County’s audited financial statements and supporting
        documentation for the period October 1, 2008, through September 30, 2010;

    •   reviewed Carbon County’s applications for CSBG and CSBG Recovery Act funding and
        Carbon County’s implementation of the grant awards;

    •   reviewed Carbon County’s bylaws, Board of Directors’ (Board) meeting minutes,
        composition of the Board, financial management policies and procedures, and
        organizational chart;

    •   reviewed and analyzed Carbon County’s expenditure and financial reports;

    •   performed audit steps to assess the adequacy of Carbon County’s current financial
        systems;

    •   judgmentally selected and reviewed 30 program vouchers 2 that 1 subcontractor submitted
        to Carbon County to determine whether the recipients’ application information was
        adequately supported by appropriate eligibility documentation; 3

    •   reviewed the remaining 10 subcontractors’ documentation supporting their
        determinations of client eligibility;

2
  Carbon County, after approval of a recipient’s program application, issued program vouchers that were later
redeemed for reimbursement by service providers.
3
 This subcontractor (Public Health – Emergency Health) had the largest program in terms of number of vouchers.
We selected and reviewed 30 of its vouchers to determine whether there was evidence that a problem existed in the
population from which we drew our nonstatistical sample. The other 10 subcontractors had fewer vouchers.
Therefore, we reviewed all of their vouchers.




                                                         3
   •   interviewed State officials and Carbon County’s management, program, and financial
       staff to gain an understanding of each entity’s processes for monitoring the CSBG and
       CSBG Recovery Act programs; and

   •   discussed findings with State and Carbon County officials on June 11, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Not all of the CSBG and CSBG Recovery Act costs claimed by the State agency on behalf of
Carbon County were allowable under the terms of the grants and applicable Federal regulations.
Of the $302,390 in CSBG funds and CSBG Recovery Act funds that the State agency claimed on
behalf of Carbon County, $75,482 was allowable under the terms of the CSBG and CSBG
Recovery Act grants and applicable Federal requirements. However, $143,588 in CSBG funds
and CSBG Recovery Act funds was not allowable under the terms of the grants and applicable
Federal regulations. These costs were unallowable for the reasons detailed below.

Carbon County claimed $141,759 ($61,999 in CSBG funds and $79,760 in CSBG Recovery Act
funds) that was unallowable because Carbon County’s subcontractors distributed these funds to
recipients without adequately supporting the subcontractors’ eligibility determinations. Some of
these unallowable costs had additional deficiencies (broken out by subcontractor in Appendix A)
that would have led to recommended disallowances of those costs. Specifically, Carbon County:

   •   transferred grant funds totaling $9,063 between subcontractor programs without
       obtaining prior written approval from the State agency,

   •   claimed $4,643 in costs that were unallowable because the subcontractor expenditures
       associated with these funds were inadequately documented,

   •   claimed costs totaling $4,001 that were unallowable because they were associated with
       entertainment,

   •   claimed $2,479 in costs that were unallowable because the expenditures had been paid by
       other funding sources in previous years, and

   •   claimed $727 in fringe benefit costs charged by a subcontractor that were unallowable
       because they were not associated with the direct costs for these grant awards.

Carbon County claimed an additional $1,829 ($405 in CSBG funds and $1,424 in CSBG
Recovery Act funds) that was unallowable due to a variety of errors, including duplication of


                                                4
claims, lack of documentation, and services that were claimed even though they had previously
been funded under another funding source.

Carbon County did not have written policies and procedures to ensure that (1) its subcontractors
collected and maintained documentation to support their recipient eligibility determinations and
(2) it and its subcontractors claimed costs in accordance with Federal requirements and the terms
of the grant. In addition, Carbon County’s financial management policies and procedures were
not adequate to prevent overpayments for some claims. As a result, the State agency overstated
its claim to the CSBG and CSBG Recovery Act grants by a total of $143,588 ($141,759 +
$1,829).

Because our limited scope review identified unallowable costs to the extent summarized above,
some of the other costs are potentially unallowable. Although we did not perform detailed
testing of costs totaling $83,320, we are referring those costs to ACF and the State agency for
resolution.

We also noted internal control weaknesses related to Carbon County’s:

   •   monitoring of subcontractors,
   •   tracking of Recovery Act funds,
   •   participation by members at Board meetings, and
   •   bank deposits in excess of Federal Deposit Insurance Corporation (FDIC) limits.

Carbon County’s policies and procedures did not ensure that it and its subcontractors conformed
to the terms of the grants and applicable Federal requirements.

UNALLOWABLE COSTS

Inadequately Supported Eligibility Determinations

Carbon County claimed $141,759 ($61,999 in CSBG funds and $79,760 in CSBG Recovery Act
funds) that was unallowable because Carbon County’s subcontractors distributed these funds to
recipients without adequately supporting the subcontractors’ eligibility determinations.

Federal Requirements

Section 673(2) of the COATES Act states: “Whenever a State determines that it serves the
objectives of the block grant program established under this subtitle, the State may revise the
poverty line to not to exceed 125 percent of the official poverty line otherwise applicable under
this paragraph.”

The Recovery Act, Title VIII, Children and Family Services Programs, section 3, states: “[F]or
services furnished under such Act [i.e., the COATES Act] during fiscal years 2009 and 2010,
States may apply the last sentence of Section 673(2) of such Act by substituting ‘200 percent’ for
‘125 percent.’ ” This provision specifically applies to grants awarded under the provisions of the
Recovery Act (e.g., CSBG Recovery Act grants).


                                                5
Federal cost principles (2 CFR part 225, App. A, § C.1.) state: “To be allowable under Federal
awards, costs must meet the following general criteria: …. j. Be adequately documented.”
Similar language appears in 2 CFR part 230, App. A, § A.2.

In addition, Federal regulations (45 CFR § 96.30(a), Fiscal and Administrative Requirements),
state: “Fiscal control and accounting procedures must be sufficient to (a) permit preparation of
reports required by the statute authorizing the block grant and (b) permit the tracing of funds to a
level of expenditure adequate to establish that such funds have not been used in violation of the
restrictions and prohibitions of the statute authoring the block grant.”

State Requirements

The State agency’s CSBG State plans for FYs 2008 through 2010, Eligible Population, states:
“Following thoughtful discussion by a Tripartite Board, that board may, at its discretion, allow
specific areas whose economies cause a hardship for low-income people at the 100% level to
increase that level not to exceed 125% of the official poverty line.”

The State agency’s CSBG American Recovery and Reinvestment Act Program Plan (Recovery
Act State plan), Eligible Population, states: “The Recovery Act authorizes the State, and its
eligible entities, to set the income limit for eligibility to administer CSBG services at up to 200%
of the Federal poverty level.”

Unallowable Costs

Of the $165,346 in CSBG funds awarded to Carbon County for our audit period, $61,999 was
unallowable. Contrary to the provisions of 2 CFR part 225, App. A, § C.1.j, 4 of Carbon
County’s 11 subcontractors did not always collect and maintain documentation to support
recipients’ application information regarding identification, wages, residency, or family members
residing with the recipient. Specifically, 3 of the subcontractors 4 did not have documentation
supporting their billings with the names of recipients of services; thus, these subcontractors could
not demonstrate how they enforced the 125-percent poverty level threshold established by the
COATES Act. One other subcontractor 5 supported its billings with the names of recipients but
did not have documentation of recipient income and thus could not demonstrate how it enforced
the 125-percent poverty level threshold. In addition, the daycare providers to which Carbon
County awarded funds did not support their billings with the names of recipients of services and
could not demonstrate how they enforced the 125-percent poverty level threshold. Carbon
County could not provide us with any of this documentation, nor could it provide us with
evidence that it required its contracted daycare providers to enforce the 125-percent poverty level
threshold.


4
    Boys & Girls Club, Public Health – Emergency Health, and Community Resource Center.
5
    Public Health – Parenting.




                                                       6
For example, Carbon County’s largest subcontractor 6 submitted 530 vouchers for emergency
health services, with costs totaling $88,906 for reimbursement from the CSBG grant award, for
the review period. We selected a judgmental sample of 30 of the subcontractor’s program
vouchers, with costs totaling $5,586, to determine whether the recipients’ application
information was adequately supported by documentation. We found that for 25 of the 30
program vouchers that we sampled (83 percent), recipients’ application information for the
program was not adequately supported with the recipients’ names or income amounts. The costs
associated with these 25 vouchers totaled $4,734, which equated to a payment error rate of 85
percent ($4,734/$5,586) for the sampled vouchers.

We did not perform detailed testing of the eligibility determinations for the remaining program
vouchers from the CSBG grant award for the same subcontractor; see additional discussion in
“Potentially Unallowable Costs” later in this report.

Of the $137,045 in CSBG Recovery Act funds awarded to Carbon County for our audit period,
$79,760 was unallowable. Contrary to the provisions of the Federal cost principles (2 CFR part
225), 7 of Carbon County’s 11 subcontractors did not always collect and maintain documentation
to support recipients’ application information regarding identification, wages, residency, or
family members residing with the recipient. Specifically, 5 of the subcontractors 7 did not
support their billings with the names of recipients of services and thus could not demonstrate
how they enforced the 200-percent poverty level threshold established by this statute. One other
subcontractor 8 supported its billings with the names of recipients but could not demonstrate how
it enforced the 200-percent poverty level threshold. One other subcontractor 9 did not require
adequate documentation to verify residency or the number of family members listed on the
recipients’ applications.

Lack of Policies and Procedures

These claims were unallowable because Carbon County did not have written policies and
procedures to ensure that its subcontractors collected or maintained documentation to support
their recipient eligibility determinations. As a result, the State agency overstated its claim to the
CSBG and CSBG Recovery Act grants by a total of $141,759 ($61,999 + $79,760).

Additional Deficiencies at Subcontractor Level

Some of the $141,759 in unallowable costs discussed above had additional deficiencies (broken
out by subcontractor in Appendix A) that would have led to recommended disallowances of
those costs. The dollar amounts that we have associated with each of findings discussed below

6
    Public Health – Emergency Health.
7
 Boys & Girls Club, Big Brothers Big Sisters – Saratoga, Big Brothers Big Sisters – Rawlins, Public Health –
Meals, and Community Resource Center.
8
    Public Health – Dental.
9
    Encampment Preschool.



                                                        7
are already included in the costs that we are questioning (from the CSBG funds and CSBG
Recovery Act funds) because of the inadequately supported ineligibility determinations.

Unapproved Transfers of Grant Funds

The State agency’s CSBG and CSBG Recovery Act State plans, Amendments/Waivers sections,
require that CAAs receive approval in writing from the State agency before transferring funds
between budget line items (that is, between separate and distinct subcontractor programs).
Contrary to these requirements, Carbon County claimed $9,063 ($879 in CSBG funds and
$8,184 in CSBG Recovery Act funds) that was unallowable because Carbon County transferred
grant funds between subcontractor programs without obtaining prior written approval from the
State agency.

Inadequate Documentation of Expenditures

Federal cost principles (2 CFR part 225, App. A, § C.1.j., and 2 CFR part 230, App. A, § A.2.g.)
require that costs be adequately documented to be allowable. Contrary to these requirements,
Carbon County claimed $4,643 ($2,543 in CSBG funds and $2,100 in CSBG Recovery Act
funds) that was unallowable because subcontractor expenditures were not adequately
documented. Specifically, Carbon County created Microsoft Word and Excel invoices to support
these expenditures but did not maintain original source documentation such as subcontractor
invoices.

Unallowable Entertainment Costs

Federal cost principles (2 CFR part 225, App. B, § 14, and 2 CFR part 230, App. B, § 14) state
that costs of entertainment are unallowable. Carbon County claimed $4,001 ($500 in CSBG
funds and $3,501 in CSBG Recovery Act funds) 10 that was unallowable because these
subcontractor costs were related to entertainers and bands that performed at children’s events.
Carbon County did not provide any documentation supporting that these entertainment costs
furthered the goals of the CSBG program.

Costs Previously Paid by Other Funding Sources

The Recovery Act, Title VIII, Payments to States for the Child Care and Development Block
Grant section, states that Recovery Act grant funds “… shall be used to supplement, not supplant
State general revenue funds for child care assistance for low-income families.” In addition,
according to the State agency’s Recovery Act State plan, Recovery Act funds should be used to
increase the levels or types of services and activities provided to low-income recipients and
should “… not be used to replace previous appropriations of local funds for these purposes.
Clearly, the State will not allow the supplanting of other funds with CSBG Recovery Act funds.”


10
  The Boys & Girls Club claimed $3,501 and the Community Resource Center claimed $500 in CSBG funds for
entertainment expenses totaling $4,001.




                                                    8
(Emphasis in original.) Federal cost principles (2 CFR part 225, App. A, and 2 CFR part 230,
App. A), also provide guidelines for the allowability of costs charged to grant awards.

Contrary to these guidelines, Carbon County claimed $2,479 in CSBG Recovery Act funds that
was unallowable because Carbon County permitted subcontractors to use those grant funds to
supplant other funding sources. Specifically, one subcontractor 11 used $2,381 in CSBG
Recovery Act funds for its “I’m A Winner” children’s program that had been funded by another
source in prior years. In addition, another subcontractor 12 inappropriately charged $98 to the
CSBG award for tee-shirts and a membership that had been previously paid by another funding
source. In both of these cases, the earlier funding sources were still available at the time Carbon
County used Recovery Act funds.

Inconsistent Allocations to Community Services Block Grant Recovery Act Funding

Federal cost principles (2 CFR part 225, App. B, § 8.d.(5), and 2 CFR part 230, App. B, § 8.g.)
require that fringe benefits, whether treated as indirect costs or as direct costs, be allocated to
Federal awards and all other activities in a manner consistent with the pattern of benefits
attributable to the individuals or group(s) of employees whose salaries and wages are chargeable
to such Federal awards and other activities. Contrary to these requirements, Carbon County
claimed $727 of unallowable fringe benefit costs (employer-paid taxes) charged by a
subcontractor 13 to the CSBG Recovery Act award. These costs were not chargeable to the award
because the salaries and wages associated with these fringe benefits were not paid for from
Carbon County’s CSBG Recovery Act funds.

Inadequate Policies and Procedures

These procedural deficiencies occurred because Carbon County did not have adequate policies
and procedures to prevent these errors from occurring. The costs associated with these errors are
already included in the costs related to inadequately supported eligibility determinations that we
are questioning (from the CSBG funds and CSBG Recovery Act funds).

OTHER UNALLOWABLE PAYMENTS

Carbon County claimed an additional $1,829 ($405 in CSBG funds and $1,424 in CSBG
Recovery Act funds) that was unallowable due to a variety of errors, including duplication of
claims, lack of documentation, and services that were claimed even though they had previously
been funded under another funding source.




11
     Community Resource Center.
12
     The Boys & Girls Club.
13
     Big Brothers Big Sisters – Saratoga.




                                                 9
Federal Requirements

Federal cost principles (2 CFR part 225, App. A, § C.1.) state: “To be allowable under Federal
awards, costs must meet the following general criteria: …. j. Be adequately documented.”
Similar language appears in 2 CFR part 230, App. A, § A.2.

Unallowable Claims Related to Community Services
Block Grant Awards

Carbon County claimed $405 in CSBG funds that was unallowable due to a variety of errors,
including claims that were either duplicated, inadequately documented, or incorrectly charged to
the CSBG even though the services in question had been paid for by another funding source.
Specifically, one subcontractor 14 overcharged the CSBG award by $260 because it made
duplicate claims for three vouchers. This subcontractor overcharged the CSBG award by an
additional $145 because the subcontractor did not document all of the expenditures it charged to
the award; further, the amounts of costs reflected in the subcontractor’s vouchers did not
reconcile to the amounts reported to the State agency.

Carbon County also claimed $1,424 in CSBG Recovery Act funds that was unallowable because
claims were either inadequately documented or incorrectly charged to the CSBG Recovery Act
even though the services in question had been paid for by another funding source. Specifically,
one subcontractor 15 did not have adequate documentation to support claims made by two
restaurants under a meals program. 16 The vendor invoices submitted for payment of meals
provided did not match the vendor tracking system for meals provided. This subcontractor also
charged the CSBG Recovery Act award for services (provided under its dental program) that had
previously been paid by the Medicaid program. 17

The overpayments occurred because Carbon County had not developed adequate financial
management policies and procedures to prevent overpayments for some claims. As a result,
Carbon County’s CSBG and CSBG Recovery Act awards were overcharged $1,829.

POTENTIALLY UNALLOWABLE COSTS

Because our limited scope review identified unallowable costs to the extent summarized above,
some of the other costs are potentially unallowable.



14
     Public Health – Emergency Health.
15
     Public Health – Meals.
16
  The CSBG Recovery Act grant agreement states that the grant “will provide meal services to low-income and
disabled individuals.” This service did not have a formal name.
17
  After we identified this overpayment during our fieldwork and brought it to the attention of Carbon County,
Carbon County refunded the $129 through an adjustment to the State agency.



                                                        10
Specifically, our review of 30 judgmentally selected vouchers for an emergency health
program 18 identified that 83 percent of the sampled recipients’ eligibility determinations for the
program were not adequately supported. As a result, 85 percent of claimed costs for the sampled
vouchers were not allowable. Due to the limited scope of our review, we did not perform
detailed testing of the eligibility determinations for 500 claims totaling $83,320. In light,
however, of the error rates in our judgmental sample, we are referring the $83,320 for resolution
by ACF and the State agency.

INADEQUATE INTERNAL CONTROLS

In addition to the questioned costs and procedural issues discussed above, we noted internal
control weaknesses related to Carbon County’s:

       •   monitoring of subcontractors,
       •   tracking of Recovery Act funds,
       •   participation by members at Board meetings, and
       •   bank deposits in excess of FDIC limits.

Inadequate Monitoring

According to the State agency’s CSBG and CSBG Recovery Act State plans, CAAs “… will be
held responsible for ensuring that they will monitor their [subcontractors] both through desk
monitoring (fiscal and performance reports) and on-site monitoring.” The 2008—2009 CSBG
award agreement between the State agency and Carbon County states that Carbon County:
“… shall maintain an oversight capability to monitor and evaluate fiscal and performance
activities and to determine program compliance with all applicable laws, rules, regulations, and
policies.” In addition, the 2009—2010 CSBG award agreement states that the subcontractor
“… shall maintain an oversight capability of all service providers to monitor and evaluate the
fiscal and performance activities and to determine program compliance with all applicable laws,
rules, regulations, and policies.” 19

During our review period, Carbon County did not perform any on-site monitoring of its
subcontractors to ensure program compliance. Carbon County personnel stated that there were
no written monitoring procedures and that Carbon County monitored subcontractors through
phone calls. Carbon County personnel also stated that some of Carbon County’s Board members
also served on the boards of directors of their subcontractors and that Carbon County used these
relationships as a form of monitoring as well (see additional discussion in “Conflict of Interest”
section later in this report). The limited nature of these measures indicates that Carbon County
did not adequately monitor its subcontractors.



18
     Public Health – Emergency Health.
19
     The CSBG Recovery Act grant award agreement for 2009—2010 contains similar language.




                                                      11
No Separate Accounting of Recovery Act Funds

ACF’s Office of Community Services’ Information Memoranda, Transmittal 109, states: “As
part of the efforts to ensure transparency and accountability, the [Recovery Act] requires Federal
agencies and [State agencies] to track and report separately on expenditures from funds made
available by the stimulus bill.” Also, according to the State agency’s CSBG Recovery Act State
plan, Recovery Act Projects And Services section, “As required, the State and eligible entities
will track Recovery Act funds and activities so that they are clearly distinguishable from non-
Recovery Act funds. Funds must be accounted for separately from regular appropriated funds,
will have a separate CFDA [Catalogue of Federal Domestic Assistance] number, and require two
separate audits.”

Carbon County’s CSBG Recovery Act expenditures were not separately tracked and reported in
accordance with ACF and State plan requirements. Carbon County’s accounting system tracked
expenditures and payments through payments to subcontractors. However, the bank’s check
warrants 20 used to credit the general fund bank account did not separately identify the funding
sources for the credited amount. As a result, CSBG Recovery Act funds were not separately
accounted for and could not be easily identified when credited from the general fund bank
account, a situation that increased the risk that CSBG Recovery Act funds were used for non-
Recovery Act programs.

Inadequate Board Member Participation

Pursuant to the COATES Act, § 676B(a)(1), a CAA shall administer the community services
block grant program through a tripartite Board “that fully participates in the development,
planning, implementation, and evaluation of the program to serve low-income communities.” 21
Also, Carbon County’s bylaws state: “Any Board member absent from three (3) consecutive
meetings or engaging in conduct unbecoming a Board member may be reviewed by the Board
for reinstatement or dismissal.”

According to the Board’s minutes, Carbon County did not ensure that the Board adhered to the
provisions of its bylaws with respect to the level of participation of some of its members. Five
Board members (two representing the low-income category, two representing the community
category, and one representing the elected category) had not attended three or more consecutive
meetings during the July 2009 through August 2010 timeframe. The Board’s minutes gave no
indication that the other Board members reviewed the absent members for dismissal as stated in
the Board’s bylaws. As a result of these absences, there was a lack of representation at Board
meetings by all categories required for full participation in the planning, development,
implementation, and evaluation of the CSBG program, especially by the Board members
20
  A check warrant is a certification of a debt, and an authorization for the bank to pay the debt when presented with
the warrant.
21
  The COATES Act (§ 676B(a)(2)) requires a tripartite board with one third of its membership comprised of elected
public officials, one third comprised of low-income persons and the remaining third comprised of officials or
members of business, industry, labor, religious, law enforcement, education or other major groups or interests.
Carbon County’s bylaws provide for Board membership of not less than 9 members and not more than 15 members.



                                                         12
representing the interests of the low-income category whose members are the specifically
targeted recipients of the COATES Act.

Uninsured Bank Deposits

Federal regulations (45 CFR § 74.22(i)(2)) state that CAAs are required to deposit and maintain
advances of Federal funds in insured accounts whenever possible. In addition, FDIC policy
states that deposits owned by a corporation, partnership, or unincorporated associations are
insured up to $250,000 at a single bank.

Carbon County’s CSBG funds and CSBG Recovery Act funds were deposited in Carbon County,
Wyoming’s general bank accounts, and on more than one occasion those accounts exceeded the
FDIC limit of $250,000. One account was over the FDIC limit for 19 days and the other account
exceeded the FDIC limit for the entire grant period of September 22, 2009, through
September 30, 2010. Carbon County did not have written cash management policies and
procedures to ensure that cash balances did not exceed federally insured limits. As a result,
funds that exceeded FDIC limits were subject to an increased risk of loss in the event of a bank
failure.

RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment to ACF of $143,588 for costs claimed by Carbon County
       that did not conform to the terms of the CSBG and CSBG Recovery Act grants and
       applicable Federal requirements,

   •   work with ACF to determine whether the eligibility determinations associated with the
       $83,320 were correctly made and make a financial adjustment to ACF of any unallowable
       costs, and

   •   ensure that Carbon County either establishes or strengthens policies, procedures, and
       related internal controls regarding eligibility determinations, documentation, funds
       management, and oversight and monitoring of the CSBG program.

CARBON COUNTY COMMUNITY ACTION COMMITTEE COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Carbon County agreed in general that monitoring and
policies and procedures could be improved and agreed with our third recommendation, but it
generally disagreed with the specifics of our findings related to our other two recommendations.

A summary of Carbon County’s main points of disagreement and our responses follows.

Our draft report included an internal control finding related to conflicts of interest. In its
comments, Carbon County said that it felt that it was important to continue providing services to


                                               13
the community as long as Board members declared conflicts of interest and did not vote on
matters with which they had a conflict. Our draft report also included another internal control
finding related to segregation of duties. Carbon County disagreed with this finding and provided
additional information on the issue.

Carbon County’s comments, in which we have redacted personally identifiable information, are
included as Appendix B.

After reviewing Carbon County’s comments, we removed our findings regarding conflicts of
interest and segregation of duties. While acknowledging Carbon County’s efforts to improve
policies and procedures and its monitoring of subcontractors, we maintain that our other findings
and recommendations remain valid. 22

Inadequately Supported Eligibility Determinations

Carbon County Community Action Committee Comments

Carbon County agreed that monitoring could be improved and said that it had hired a consultant
to provide periodic monitoring of all subcontractors. Carbon County added that to its
knowledge, its subcontractors were collecting and maintaining the required information. With
respect to our finding that some subcontractors did not have documentation supporting their
billing with the names of recipients of services, Carbon County stated that this was not a
requirement for adequate documentation and that there were other ways to fulfill this
requirement. Carbon County also stated that the Health Insurance Portability and Accountability
Act of 1996 (HIPAA) prohibited some subcontractors from providing names. 23 Carbon County
questioned whether the provision of names was an actual requirement in light of the fact that we
had given one subcontractor permission not to provide names.

Office of Inspector General Response

We disagree with Carbon County concerning the adequacy of its supporting documentation for
its eligibility determinations. The deficiencies we noted regarding supporting documentation for
eligibility determinations involved more than just a lack of recipient names. In many cases,
Carbon County's subcontractors had no documentation at all to support Carbon County’s
eligibility determinations. Carbon County’s subcontractors simply accepted a recipient’s verbal
response during the application process to determine eligibility. Even when some documentation
existed, there was no support in many cases for recipient income or residency to support
eligibility determinations. Further, HIPAA does not prohibit Carbon County from collecting and
maintaining documentation to adequately support its eligibility determinations. Although we
22
  Based on the State agency’s comments, for our final report we reduced the amount of our questioned costs and
modified our first recommendation accordingly. Thus, some of the dollar amounts conveyed in this final report
differ from the amounts that appeared in the draft reports that we gave to both Carbon County and the State agency
for comment.
23
     P.L. No. 104-191.




                                                        14
gave one subcontractor (Citizens Organized to see Violence End, Inc. (COVE)) permission not
to provide names, we did so based on the nature of the program (domestic violence cases) and
the immaterial amount of CSBG grant funds allocated to it. We informed Carbon County of this
decision and its rationale during our fieldwork. Therefore, nothing in Carbon County’s
comments caused us to change our recommendations.

Lack of Policies and Procedures

Carbon County Community Action Committee Comments

Carbon County stated that in conjunction with the State agency, it was always appropriate to
improve or establish policies and procedures, and to ensure that subcontractors comply with
applicable laws, rules, regulations and policies. Carbon County said that it had hired a consultant
to monitor the Board and had requested that the State agency provide training sufficient to assist
the Board in its duties of implementing and administering CSBG funds. Carbon County added
that it believed that its contracts with its subcontractors and the State agency advised
subcontractors of their responsibilities and that the subcontractors had complied with those
responsibilities.

Office of Inspector General Response

While we acknowledge Carbon County’s efforts to improve its policies and procedures and its
monitoring of its subcontractors, we disagree with Carbon County that it or its subcontractors
had complied with Federal regulations. As stated in “Specific Comments on Office of Inspector
General Recommendations” below, we maintain that the procedural courses of action called for
in our third recommendation remain valid.

Unapproved Transfers of Grant Funds

Carbon County Community Action Committee Comments

Carbon County stated that an amendment request was made to and subsequently approved by the
State agency. Carbon County said this was evidenced by the fact that (a) it was required to
submit monthly expenditure reports to an online system maintained by the State agency and
(b) these reports reflected budgeted amounts that the State agency could amend but that users
like Carbon County could not. Carbon County stated its belief that the change to the budgeted
amount in this reporting system constituted written authorization of an amendment.

Office of Inspector General Response

We disagree with Carbon County. Wyoming’s CSBG and CSBG Recovery Act State plans
specifically require Carbon County to request in writing the State agency’s prior approval for the
transfer of funds between budget line items. In addition, Carbon County must receive the State
agency’s approval in writing before transferring the funds. We requested documentation of this
formal request and approval during our fieldwork, but Carbon County did not provide the



                                                15
requested documentation. Therefore, nothing in Carbon County’s comments caused us to change
this finding or the associated recommendation.

Inadequate Documentation of Expenditures

Carbon County Community Action Committee Comments

Carbon County stated that it felt that all of its expenditures were adequately documented and that
subcontractor or vendor invoices were maintained in all instances. Carbon County then stated
that it would need more specific detail to dispute this finding.

Office of Inspector General Response

Our finding involved the use of Excel and Word software programs with which Carbon County
created invoices to support subcontractor expenditures totaling $4,643. We do not regard these
invoices as adequate supporting documentation because these were not original subcontractor or
vendor invoices. We made Carbon County aware of these specific expenditures during our
fieldwork. Therefore, nothing in Carbon County’s comments caused us to change this finding or
the associated recommendation.

Unallowable Entertainment Costs

Carbon County Community Action Committee Comments

Carbon County stated that it felt that the expenditures were appropriate because they were, not
for entertainers, but rather for educational activities as described by the subcontractor.

Office of Inspector General Response

We disagree with Carbon County as to the nature of these expenditures. The subcontractor’s
contract with the entertainer specifically used the terminology “Purchaser of Entertainment” and
had no language describing the services as educational. Neither Carbon County nor its
subcontractor explained or provided supporting documentation regarding how these expenditures
met the CSBG program goals to address, reduce and eliminate the conditions of poverty.
Therefore, nothing in Carbon County’s comments caused us to change this finding or the
associated recommendation.

Costs Previously Paid by Other Funding Sources

Carbon County Community Action Committee Comments

Carbon County stated that its subcontractor did not supplant CSBG grant funds with Recovery
Act funds. Carbon County said that the subcontractor had held similar past events with the same
title (“I’m a Winner”) and that these events had been funded with dues paid and donations made
by numerous businesses. Carbon County added that although the Recovery Act funding in and
of itself did not provide any new or additional services, the subcontractor was able to provide


                                               16
new services using the dues and donations that would otherwise have been employed to fund the
event. These new services included the provision of food baskets for a local agency and staple
items for the local Women, Infant and Children’s (WIC) program. Carbon County stated that
these new services would not have been offered without the Recovery Act funding for the event,
and that the two funding sources allowed for a larger overall program and did not offset each
other. Carbon County said that it believed that it had complied with the criteria we cited (the
relevant sections of the Recovery Act and the State agency’s Recovery Act State plan) in our
presentation of this finding.

Office of Inspector General Response

We disagree with Carbon County. Carbon County did not provide any documentation to support
that the funds it diverted from its “I’m a Winner” event were used to fund or increase services to
the WIC program. Nor did Carbon County increase services offered under its “I’m a Winner”
event. Thus, Carbon County did not comply with the relevant provisions of the Recovery Act
and the State agency’s Recovery Act State plan. We also point out that rather than supplanting
its regular funding source with Recovery Act funds for the “I’m a Winner” event, Carbon County
could simply have applied to use Recovery Act funds to increase WIC program services.
Accordingly, nothing in Carbon County’s comments caused us to change this finding or the
associated recommendation.

Inconsistent Allocations to Community Services Block Grant
Recovery Act Funding

Carbon County Community Action Committee Comments

Regarding our finding of unallowable fringe benefit costs charged by a subcontractor, Carbon
County stated that the requirements of 2 CFR part 230 were “likely misunderstood.” Carbon
County also stated that the fringe benefits charged to CSBG funds were consistent with the
benefits that individuals could charge and that Carbon County misunderstood the “confusing
language” of this requirement to pay the salary from the same grant as the benefits.

Office of Inspector General Response

Nothing in Carbon County’s comments caused us to change this finding or the associated
recommendation.

Inadequate Monitoring

Carbon County Community Action Committee Comments

Regarding the first of the internal control weaknesses that we identified, Carbon County stated
that it would welcome State agency monitoring to ensure that it was correctly administering
grant funds. Carbon County added that it had hired a consultant to provide on-site monitoring of
all subcontractors.



                                               17
Office of Inspector General Response

We acknowledge Carbon County’s efforts to improve policies and procedures and its monitoring
of subcontractors.

No Separate Accounting of Recovery Act Funds

Carbon County Community Action Committee Comments

Carbon County stated that CSBG funds were at all times tracked separately from other county
funds and Recovery Act funds. Carbon County explained that the County Treasurer noted the
incorrect account number in the county’s financial system and that this error did not constitute
misuse of funds. Carbon County further stated that it was a “major stretch” for us to allege that
the funds were not separately tracked.

Office of Inspector General Response

We do not state that the County Treasurer misused CSBG or Recovery Act funds. In fact, we
state in this finding that Carbon County tracked paid claims in the accounting system. However,
Carbon County’s CSBG funds and CSBG Recovery Act funds were deposited in the county’s
bank accounts along with funds from other funding sources, which essentially commingled the
funds. Carbon County used check warrants which did not separately identify the funding sources
for the amounts credited to various subcontractors, and as a result Recovery Act funds could not
be separately tracked when paid to the subcontractors as provided by ACF guidance and the
State agency’s CSBG Recovery Act State plan. Therefore, there was an increased risk that
CSBG Recovery Act funds were used for non-Recovery Act programs.

Inadequate Board Member Participation

Carbon County Community Action Committee Comments

Carbon County stated that it would be “… unfair to penalize subcontractors and the low-income
populations of the county for a few individuals who committed to serve on a volunteer board and
subsequently failed to keep their commitment.” In response to our statement that the Board’s
minutes gave no indication that the other Board members reviewed the absent members for
dismissal, Carbon County stated that the Board has only action minutes and that other issues are
simply generalized in the contents of the minutes. Carbon County also stated that it had made
numerous attempts to contact the absent Board members and pointed out that because Board
members come from a small community and serve without compensation, it is difficult to recruit
new members.

Office of Inspector General Response

It is not the intent of our findings or recommendations to penalize subcontractors or the low-
income individuals who represent Carbon County’s target population for the absences of Board
members. Our intent is to point out that contrary to Carbon County’s bylaws, a significant


                                                18
number of Board members was consistently absent, and nothing in Carbon County’s Board
minutes indicated that the Board attempted to replace absent members. We would further point
out that the CSBG Act specifically addresses the inclusion of members of the local low-income
population to ensure representation of that population on the Board. It remains our position that
a more active and representative Board would provide better oversight and monitoring of the
program.

Uninsured Bank Deposits

Carbon County Community Action Committee Comments

Carbon County stated that our finding concerning its bank deposits was incorrect. Carbon
County stated that its accounts had the $250,000 FDIC collateral and that the amounts in those
accounts that exceeded the $250,000 FDIC limit were collateralized by the bank and were
therefore not at an increased risk of loss in the event of a bank failure.

Office of Inspector General Response

We disagree with Carbon County. Accounts collateralized by a bank are at a higher risk of loss
in the event of a bank failure than are accounts that are fully insured by the FDIC. Nothing in
Carbon County’s comments caused us to change this finding.

Specific Comments on Office of Inspector General Recommendations

Carbon County Community Action Committee Comments

Carbon County agreed with our third recommendation related to establishing or strengthening its
policies, procedures, and related internal controls. Regarding our first recommendation
regarding a financial adjustment of $143,588, Carbon County requested that the final
determining authority not require the State agency to make any adjustment to ACF “… simply
for minor and inadvertent mistakes that may or may not have occurred in rare instances by
anyone involved.” Carbon County stated that if the State agency were to request that these funds
be repaid by Carbon County and, in turn, its subcontractors, it would be “unfair and unjust”
because a repayment requirement could cause the subcontractors to cease providing their
important and necessary services. Carbon County requested that if a financial adjustment were
to be required, Carbon County be allowed to apply any future allocation of CSBG funds to the
adjustment.

Regarding our second recommendation related to eligibility determinations, Carbon County
stated that it felt it had been adequately audited since the inception of this audit in July 2011 and
that it is making every effort to improve any deficiencies. Carbon County respectfully requested
that this effort cease.




                                                 19
Office of Inspector General Response

Except for the removal of our findings regarding conflicts of interest and segregation of duties,
nothing in Carbon County’s comments caused us to change our findings or recommendations.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our third
recommendation but did not concur with our first two recommendations. A summary of the
State agency’s comments and our response follows.

The State agency’s comments appear in their entirety as Appendix C.

After reviewing the State agency’s comments and the grant award requirements, we accepted
$21,433 in costs that we had questioned in our draft reports and revised the amounts of our
questioned costs and the associated first recommendation accordingly. Otherwise, we maintain
that our findings and recommendations are valid.

Inadequately Supported Eligibility Determinations

State Agency Comments

The State agency prefaced its specific comments on our draft report by saying that it did not have
the original client application files or reimbursement billing documentation from Carbon County
and “… can only make considerations according to the information provided.”

The State agency disagreed with our findings regarding inadequately supported eligibility
determinations. The State agency pointed out that after it published its FY 2010 CSBG State
plan, it raised the poverty level threshold for recipient income to 200 percent of the Federal
poverty level and notified all tripartite boards of that change; further, the State agency named
several subcontractors that had verified that recipient income did not exceed the 200-percent
poverty level threshold. The State agency also described the programs and services that each of
the subcontractors named in our findings had funded with CSBG and CSBG Recovery Act grant
awards. According to the State agency, several of the subcontractors 24 mentioned in our
findings maintained recipient application and/or income information on site. For other
subcontractors, the State agency explained why individual recipient names were not documented.
For example, in the case of Public Health – Emergency Health (see footnote 3), “[w]hen
submitting bills to the Tripartite Board, names must be abstracted since the payments are made
through the local government and become public property. This is to ensure [HIPAA]
regulations are not violated.”


24
 Boys & Girls Club, Public Health – Emergency Health, Public Health – Parenting, daycare providers, and Public
Health – Meals.




                                                      20
Office of Inspector General Response

Regarding the State agency’s prefatory statement that it did not have the original client
application files or reimbursement billing documentation from Carbon County, we note that
while the actual files and billing documentation may have resided in Carbon County, the
Recovery Act required the State agency to monitor the CAAs to which it awarded grant funds.
The Catalog of Federal Domestic Assistance, No. 93.710, for the Recovery Act CSBG program
states: “The State also must describe how it will incorporate monitoring of Recovery Act funds
into its regular monitoring of CSBG eligible entities. This includes descriptions of how the State
will monitor restrictions on administrative expenses, eligible recipients, board requirements for
community action agencies and other nonprofit organizations, fiscal control, monitoring.…”
(emphasis added). 25 In addition, ACF guidance for the administration of CSBG Recovery Act
funds states that “States are required to monitor eligible entities’ administrative, financial and
program operations as prescribed in the CSBG Act.” 26 Therefore, the State agency has a
statutory responsibility to exercise adequate oversight by ensuring that Carbon County (and other
CAAs) correctly monitored the CSBG program.

After reviewing the State agency’s comments and the grant award requirements, we accepted
$21,433 in costs for three subcontractors that our draft reports had questioned. We revised the
amounts of our questioned costs and the associated first recommendation accordingly.
Specifically, we accepted $16,909 for the Boys & Girls Club (see footnote 7) because that
subcontractor provided a youth development center, funded a position for computer literacy and
Internet safety classes, and adequately documented its supply purchases in accordance with its
agreement with Carbon County and the State agency. We also accepted $2,940 for Western
Wyoming Family Planning because that subcontractor purchased and adequately documented
supplies to provide testing and educational material for sexually transmitted diseases and human
immunodeficiency virus, as stated in the subcontractor’s agreement with Carbon County and the
State agency. In addition, we accepted $1,584 in costs claimed for the publication of a
Resources Directory, because Community Resource Center provided that Directory according to
its agreement with Carbon County and the State agency and because it provided adequate
documentation for the expenditures.

We maintain that our remaining findings and recommendations are still valid. With respect to
the State agency’s statement that several subcontractors had verified that recipient income did
not exceed the 200-percent poverty level threshold, neither the State agency nor Carbon County
provided us with the supporting documentation demonstrating that the recipients of the services
in question met the eligibility requirements. The State agency’s comments described some
subcontractors’ recipient income verification processes, and either offered reasons why some
subcontractors did not maintain documentation of individual recipient information or else stated
25
  Catalog of Federal Domestic Assistance
https://www.cfda.gov/?s=program&mode=form&tab=step1&id=7a4609448404d3d601806d0be30341eb (accessed
June 4, 2013).
26
  CSBG ARRA Questions and Answers, Reporting and Monitoring, Question 6
http://www.acf.hhs.gov/programs/ocs/resource/csbg-arra-questions-and-answers-i?page=all (accessed June 5, 2013).




                                                      21
that subcontractors maintained documentation on site. However, as noted in our response to
Carbon County’s comments, in many cases Carbon County's subcontractors had no
documentation at all to support Carbon County’s eligibility determinations, and simply accepted
a recipient’s verbal response during the application process to determine eligibility.

Additional Deficiencies at Subcontractor Level

State Agency Comments

The State agency provided mixed responses to our findings regarding additional deficiencies at
the subcontractor level. The State agency agreed with our finding regarding $727 of unallowable
fringe benefit costs charged by a subcontractor 27 to the CSBG Recovery Act award and either
disagreed with or did not directly address our other findings regarding additional deficiencies at
the subcontractor level. For our finding on the unapproved transfers of grant funds, the State
agency said that provider-level budget line item changes and transfers were not made without
prior approval from the State agency, and added that “[i]t is common practice to authorize these
changes through email….” For our findings on inadequate documentation of expenditures and
costs previously paid by other funding sources, the State agency said that it could not agree or
disagree without being provided specific details and documentation. The State agency disagreed
with our finding on unallowable entertainment costs and said that both of the subcontractors in
question (see footnote 10) used music as “… an alternative method of teaching children rather
than a form of entertainment.” Finally, the State agency said that it would assist Carbon County
in revising, establishing, and strengthening policies and procedures.

Office of Inspector General Response

Regarding the unapproved transfers of grant funds, we disagree with the State agency’s
comments and again point out that the State agency’s CSBG and CSBG Recovery Act State
plans required prior requests and approvals in writing before CSBG and CSBG Recovery Act
funds could be transferred. Neither Carbon County nor the State agency provided us with either
prior written requests or approvals, notwithstanding Carbon County’s stated belief that the
change to the budgeted amount in the State agency’s reporting system constituted written
authorization of an amendment.

The State agency said that it could not agree or disagree with our findings on inadequate
documentation of expenditures and costs previously paid by other funding sources because it did
not have specific details and documentation. The CSBG Act, the Recovery Act, and ACF
guidance, however, all specify that the State agency is responsible to adequately monitor the
CAAs to which the State agency awarded CSBG and CSBG Recovery Act funds. The State
agency did not adequately monitor Carbon County and, in turn, Carbon County did not
adequately monitor its subcontractors. Had monitoring reviews been performed by either
Carbon County or the State agency, it is likely that subcontractor deficiencies would have been
identified.

27
     Big Brothers Big Sisters – Saratoga.




                                               22
Regarding the unallowable entertainment costs, we disagree with the State agency’s comments.
Carbon County’s subcontracts described the subcontractors’ services as “entertainment.” In
addition, the subcontracts did not explain or provide supporting documentation regarding how
these entertainment services furthered the goals of the CSBG program. Therefore, nothing in the
State agency’s comments caused us to change our recommendations concerning these
deficiencies.

Other Unallowable Payments

State Agency Comments

The State agency agreed with our finding that a subcontractor 28 charged $129 to the CSBG
Recovery Act award for dental services that had previously been paid by the Medicaid program.
With respect to our other findings on claims that were unallowable because they were either
duplicated or inadequately documented or because they had previously been paid for by another
funding source (see footnotes 14, 15, and 16), the State agency said that it could not agree or
disagree with these findings without further documentation or specific details.

Office of Inspector General Response

As provided for in the CSBG Act, the Recovery Act, and ACF guidance, it is the State agency’s
responsibility to adequately monitor the CAAs to which the State agency awarded CSBG and
CSBG Recovery Acts funds. The State agency awarded some of these grant funds to Carbon
County, and that entity should therefore have conducted on-site monitoring of the subcontractors
to which it awarded grant funds. The State agency did not adequately monitor Carbon County
and, in turn, Carbon County did not adequately monitor its subcontractors. The subcontractors
did not conform to the cost principles because they did not collect and maintain adequate
documentation to support their eligibility determinations. Had monitoring reviews been
performed by either Carbon County or the State agency, it is likely that subcontractor
deficiencies would have been identified. Therefore, nothing in the State agency’s comments
caused us to change our findings or recommendations regarding these other unallowable
payments.

Potentially Unallowable Costs

State Agency Comments

The State agency did not concur with our second recommendation regarding the $83,320 in costs
that we set aside. The State agency described the subcontractor’s (see footnote 18) recipient
application process and the State-level income eligibility verification process. The State agency
added that recipient names were not attached to invoices to protect the recipients’ privacy.


28
     Public Health – Dental. See also footnote 17.




                                                     23
Office of Inspector General Response

The information that the State agency provided on application and verification processes did
not—in light of the high error rate that we had identified—cause us to change our second
recommendation. Our earlier comments regarding the inadequacy of documentation supporting
eligibility determinations are applicable here as well. Although the State agency described the
subcontractor’s recipient application process and the State-level income eligibility verification
process, in many cases Carbon County’s subcontractors had no documentation at all to support
Carbon County’s eligibility determinations. Even when some documentation existed, there was
no support in many cases for recipient income or residency to support eligibility determinations.
Further, HIPAA does not prohibit Carbon County from collecting and maintaining
documentation to adequately support its eligibility determinations.

Inadequate Internal Controls

State Agency Comments

The State agency concurred with our third recommendation and described corrective actions that
it had taken or planned to take. With respect to the internal control weaknesses that contributed
to this recommendation, the State agency agreed with our first finding regarding Carbon
County’s inadequate monitoring of its subcontractors. The State agency added (as Carbon
County also indicated in its comments on our draft report) that Carbon County had hired a
contractor to provide on-site monitoring “… for each of the service providers.”

The State agency disagreed with our other three internal control findings. For our finding that
Carbon County’s CSBG Recovery Act expenditures were not separately tracked and reported,
the State agency said that Carbon County “… maintains that even though the County Treasurer
erroneously noted an incorrect account number in the County’s financial system when receipting
the funds, there was never any misuse of funding.” Regarding Board member participation, the
State agency said that Carbon County made numerous attempts to contact the absent Board
members and added that Carbon County had implemented changes to its process and was
actively seeking new members. Regarding uninsured bank accounts, the State agency cited
Carbon County’s statement that its bank accounts were insured and “… amounts in excess are
collateralized by the bank.” The State agency also summarized the amounts that Carbon County
held in its accounts and, summing those amounts, concluded that “… it seems unlikely that the
accounts would ever be over the $250,000 limit.”

Office of Inspector General Response

We maintain that all of the internal control weaknesses that we identified remain valid. Nothing
in the State agency’s comments caused us to change our finding that Carbon County’s CSBG
Recovery Act expenditures were not separately tracked and reported. As we said in our response
to Carbon County’s comments, we did not state that the County Treasurer misused CSBG or
Recovery Act funds. However, Carbon County’s CSBG funds and Recovery Act funds were
deposited in the county’s bank accounts along with funds from other funding sources, which
essentially commingled the funds. Carbon County used check warrants which did not separately


                                               24
identify the funding sources for the amounts credited to various subcontractors, and as a result
Recovery Act funds could not be separately tracked when paid to the subcontractors as provided
by ACF guidance and the State agency’s CSBG Recovery Act State Plan. Therefore, there was
an increased risk that CSBG Recovery Act funds were used for non-Recovery Act programs.

With respect to Board member participation, we acknowledge the State agency’s comment that
Carbon County had implemented changes to its process and was actively seeking new members.
However, we continue to point out, as we did in our response to Carbon County’s comments,
that the consistent absences of a significant number of Board members from Board meetings
constituted a violation of Carbon County’s own bylaws. We also continue to have concerns
about the adequate participation of the required population groups within Carbon County’s local
community, especially the low-income population.

Finally, we disagree with the State agency concerning the uninsured bank account. As we stated
in our response to Carbon County’s similar comments, accounts collateralized by a bank are at
higher risk of loss in the event of a bank failure than are accounts that are fully insured by the
FDIC. Further, although the State agency said that it would be unlikely that Carbon County’s
bank accounts would ever exceed the FDIC limit, we note that during our fieldwork we
identified at least two separate occasions when that in fact happened.

Technical Comments

State Agency Comments

The State agency’s comments included technical comments related to Carbon County’s formal
name and its status as a nonprofit CAA, the relevant Federal cost principles, the grant periods for
which CSBG and CSBG Recovery Act funds were allocated, and the amounts of that funding.

Office of Inspector General Response

After reviewing the State agency’s technical comments concerning Carbon County’s status as a
CAA and the relevant Federal cost principles, we revised our final report to clarify Carbon
County’s status as a local governmental entity and to clarify the applicability of Federal cost
principles to governmental entities, grantees, and subcontractors. We note that the cost
principles applicable to the State agency and Carbon County (2 CFR part 225) convey the same
documentation requirements as do the cost principles applicable to Carbon County’s
subcontractors (2 CFR part 230). With respect to the State agency’s other technical comments,
we did not change the language in our final report because the documentation that Carbon
County provided to us supported our report’s description of Carbon County’s grant periods and
the amounts of funding that we reviewed.

The difference between the amounts that the State agency mentioned in its comments and the
actual amounts stated in the CSBG and CSBG Recovery Act grant award agreements was due to
the “Set-Aside” funding that, as stated in “Scope,” was outside the scope of our review and that,
therefore, we did not audit.



                                                25
APPENDIXES
                  APPENDIX A: ADDITIONAL DEFICIENCIES BY SUBCONTRACTOR



                  Unauthorized                                                  Unallowable
                   Transfer of    Insufficient    Unallowable                   Claims Paid
                     Grant        Expenditure    Entertainment   Unallowable     By Another     Inconsistent
                     Funds       Documentation   Expenditures    Supplanting   Funding Source    Allocations
  Community
   Resource
 Center/Youth
   Services                           x               x              x

     COVE
    Western
   Wyoming
Family Planning
 Public Health/
  Emergency
     Health                           x                                              x
 Public Health/
   Parenting
     Public
 Health/Meals          x                                                             x
     Public
 Health/Dental                                                                       x
   Boys and
   Girls Club          x              x               x                              x
 Encampment
   Preschool
  Big Brothers
 Big Sisters of
    Rawlins
  Big Brothers
 Big Sisters of
    Saratoga                                                                                         x
                                                                                                             Page l of 4


APPENDIX B: CARBON COUNTY COMMUNITY ACTION COMMITTEE 

                      COMMENTS
                                                                                       --- ------~- ~-------- - ----- l




                                                                                                                           I


                                  CARBON COUNTY ACTION COMMIHEE 

                                                   P.O. BOX 6 

                                               RAWLINS, WY 82301 

                                                   (307) 328-2668 

                                                FAX : (307) 328-2669 

                                      e-mai l: gwynnbartlett@carbonwy.com 


   January 20, 2013




   Department of Health and Human Se rvices
   Office of Inspector General
   Via e-mail to: jarnes . koi!l@Q]aJill~_,g_Qy

   RE: 	   Report entitled "NOT ALL COMMUNITY SERVICES BLOCK GRANT COSTS CLAIMED ON BEHALF OF
           THE CARBON COUNTY COMMUNITY ACTION COMMITTEE FOR THE PERIOD OCTOBER 1, 2008
           THROUGH SEPTEMBER 30, 2010 WERE ALLOWABLE"

   Dear Mr. Korn:

   We, the Carbon County Community Action Program (CCCAP) through our secretary Gwynn Ba rt lett,
   would like to respectful ly respond to the above mentioned "dr        n June 2012, we were
   provided with an "exceptions report " [attached as Exhibit A) from     uditor Region VII, with
   specific find ings and told the draft report would arrive July 2, 20 ave the reference draft
   report and we would like to address the specific findings.




   Page 5 - Inadequately Supported Eligibili ty Determinations:           We agree that monitoring could be
   improved on which is why the CCCAP has hired a consultant to provide periodic monitoring of all
   subgrantees.     To our knowledge, the subrecipients were collecting and maintaining the required
   mformat io n.    There are references in the draft report to names of recipients not being provided
   however we argue that the names are not a requirement to provide adequate documentation and there
   are other ways to achieve this. HIPPA would prohibit some subgrantees from providing these names
   and further the aud1tors approved one Subgrantee to not provide names and we wonder why the
   auditors are making that call if this is truly a requirement.

   Pag e 7 - lack of Policies an d Procedures: We agree th at, in conjunction with the State of Wyom i ng
   Departm ent of Health (DOH), it is always appropriate to imp rov e upon or establish policies, procedures,
   and to ensure subcontractors comply with applicable laws, rules, regulations, and policies. In add ition to
   hiring a consultant to provide monitoring our board has also requested DOH provid e t raining sufficie nt
   to assist our board in o ur duties of imp lementing and administe rin g CSBG funds. The board did use a
   contract w ith subgrantees and we believed it and our contract with DOH advised the subgrantees of
   their respon sibilities and that th ey had compli ed with those responsibilities,

                                                     Page 1 of 4
                                                                                                                Page 2 of 4

---------------------------------------
                                                                                                           -----,I
   Page 8- Unapproved Transfers of Grant Funds: An amendment request was made to the W oming
   Department of Health (DOH). t:REDAc;; D
                                         ::                  1
                                                    and subsequently approve    REDAcTED       his is 

   evidenced by the fact that theCAP r 101reo to !:ubm1t monthly expenditure repor s us1ng an online 

   system developed by the DOH, cmReporter.             These reports show a budgeted amount that cann ot be 

   amended by the user but only by the DOH . The referenced expenditures would have caused a negative 

  balance in a particular line item had an amendment to the budgeted amount not been made by DOH. 

  DOH's change to the budgeted amount in cmReporter would only be due to a reque st by CCCAP and 

  approval of a budget amendment. We feel that the change to the budgeted amount in the reporting 

  system constituted written authorization of an amendment . 


  Page 8 - lnade_guate Documentation of             Expe!lslitu_r,~:   We feel all expenditures were adequately 

  docum ented and subcontractor or vendor invoices were maintained in all instances . We would need 

  more specific detail to dispute this finding. 


  Page 8 - Unallowable Entertainment Costs : We felt that thes e expenditures were appropriate at th e 

  time approved as these were educational events and these were not "entertainers" but rather 

  "educ ational activities" as described to us by the subgrantees. 


  Pa ge 8 - Costs Previouslv Paid by Other Fundin g Sources : This finding alleges that a subgrantee 

  supplanted CSBG funds with ARRA funds (or CSBG Recovery Act Funds) however we wou ld argue that 

  grant funds were not supplanted as the funds allowed for additional services. While the subgrantee 

  held past events with the same title, the past events were funded strictly by numerous businesses 

  $25.00 dues paid to the agency as well as donations from numerous businesses. While the ARRA fund ed 

  event did not provide any new or additional services itself, the subgrantee was able to provide new 

  services with the dues and donations that they WOlJid have otherwise used for the event in question . 

  These new services included things such as providing food baskets for a local agency and providing 

  staple items for the local Women, Infant and Children's program - services that wou ld not have beer1 

  offered without the ARRA funding for the event. The two referenced awards allowed for a larger overall 

  program and did not offset each oth er and therefore, in our view, shou ld not be considered supplanting. 


  Further, we fee l we did comply with the reference in the criteria section of this conditiOn.

  ~e    9-   ln_~QI'lg~tentA!!ocations   to Communit y Services Block Gran t Recove ry Act Fundin g: Honestly, 

  the requirements of 2CFR part 230 mentioned in the draft report were likely misu nderstood. The fringe 

  benefits charged to CSBG funds were consistent with benefits that individuals could charge and we 

  simply misunderstood the confusing language in this requirement to pay the salary from the same grant 

  as the benefits. 


  Pa ge 9- In adeq uate Policies and Procedures : As sated above, we agree that , in conjunction with the
  State of Wyoming Department of Health, it is always appropriat e to improve upon or establish po licies,
  procedures, and to ensur e subcontractors comply with applicabl e laws, rules, regul ations, and policies .




                                                       Page 2 of 4




                                                                                       -----------------------
                                                                                                             Page 3 of 4

                                                                  - - -- - - ---          ----        -       - --




add ition, again, we have hired a consultant to provide on-site monitoring of all subgrantees.

Page 11 - No Separate Accoun t ing of Recove ry Act Funds~        CSBG funds were, at all times, tracked
separately from other county funds and recovery act funds were tracked separately as well . The County
Treasurer simply noted the incorrect account number in the county's financial system wh en receipting
funds. The County Clerk and member of the CCCAP did track these funds separately in the state's onlin e
reporting system as well as in her tiles. The Treasurer's error did not constitute the misuse of funds in
any manner and we believe it Is a major stretch to all ege the funds were not tra cked separately.

~- lnadeg uate Board Ml:!_mber Partici patiQ!:t: It would be unfair to penalize subcontractors and
the low-income populations of the county for a few individuals who committed to serve on a volunteer
board and subsequently failed to keep their commitment.          Further, the draft report states that the
board's minutes never gave any indication that members were reviewed for their absences. The board
has only action minutes and other items are simply generalized in the contents of the minutes. These
members' absences were addressed on numerous occasions and we did mak e numerous attempts to
contact the absent individuals.

Page 12 - Conflicts of Interest: The alleged failure by the bo ard to review the absent members for
dismissal is ci ncorrect. Article Ill, Section 2(c) of the Carbon County Community Action Program (CCCAP)
By-Laws state "Any Board member absent from three {3} consecutive meetings or engaged in conduct
unbecoming a Board member mav be reviewed by the Board for reinstatem ent or dismissal...... " We
would argue that because the By- Laws state "may" rather than shall, it was the board's opti on to review
these absences .

It seems that OIG believes all categories of our board must be represented however our by-laws do not
requir e this.

Finally, there were several occasions where members' absences were discussed and attempts were
often made to contact the absent individuals to determine if they were still interested in serving on the
board . Keep in mind that this is strictly a volunteer board with no compensation and that in a small
community/county such as this, it is difficult and at times impossible to recruit new members to serve.
Due to this, the board is often hesitant to remove individuals without making every attempt to ask them
to continue the ir service and without having a replacement. We felt that it was important to continue
to provide the services for the community as long as the individuals serving on the board declared
conflicts and did not participate in votes they were conflicted on.

Page 14- Lack of Segregation of Duties: This find ing is completely false . Carbon County did NOT allow
for a subcontractor to authorize and pay for any expenditures. As stated in Condition 8 above, there arc
adequate segregation of duties for the county with the department heads stamping each invoice and
coding it with the proper account number, submitting that invoice to the County Clerk for review and
processing. The Clerk then presents all invoices to the Board of County Commissioners who authorizes
payment through motion in a public meetmg.           The approved invoices are then paid with county

                                                Page 3 of 4



                                                                                                                     ___ I I
                                                                                                                       Page 4 of 4




warrants issued by the County Clerk and subsequently cleared by the County Treasurer. We are unclea r
on how the subcontractor is alleged to have "authorized and paid" for any expend iture noting the
procedures above as that Subgrantee has absolutely nothing to do with the authorization or payment.
She simply codes an invoice.

f'il&!!2 .'L.- Uninsu[!!d   Ban_k_Q_~R.Qsits :   Again, we feel th is finding is false. We h<Jve ch ecked through all
the County's Aud its during the n;fere nced period and found that the accounts i n question have th e
$250.000.00 FDIC co llateral and the amounts in both acco unts that exceeded the $250.000.00 FDIC llmrt
were collaterali zed by the bank thc refor·e there was not an increase d risk of loss in th e· eve nt of a bank
failure.


               --------------------- - - - - · - · - -                                           .   --- - - - · · ­
While there was never any intent on the part of CCCAP or its subcontractors to use funds for
unallowable items, we feel that our board has taken steps to ensure appropriate use of funds including
hiring a consultant to perform monitoring, actively trying to recruit new board members, requesting the
State assist with revisions to our policies and procedures as needed, as well as requesting addit ional
training for all current and future board members frorn the State of Wyom i ng Department of Health.
We are simply volunteers doing our best to ensure the proper use of federal grant funds while try ing to
provide necessary services to our low-income poptJiations .

We would respectfu ll y req uest that tlw final determining authority not require t l1 e State of Wyoming
make any adjustments to ACF fo r costs claimed by Carbon Cou nty simply due to minor and inadvertent
mistakes that may or may not hav e occurred in rare instances by anyone involved.                      If this were to
happen, the State may requ est t hese funds be repard by the county or CCCAP and in turn by CCCAP's
subcontractors. In our opinion, it would be unfair and unjust for the repayment to be required. These
subcontractors likely do not have th e funds to repay and we fear that any repayment requirement could
cause them to cease provid ing their very important and necessary services all together.                        If any
adjustments arc requir ed to be made, we would request that we be allowed to apply any future
allocatio n of CSBG funds t oward; the adjustment.

As far as the second bullet point in the recommendations section on Page 15, we feel that we have been
adequately audited since the inception of this audit almost 19 months ago (July 2011) . We are making
every effort to rmprove upon anything we are deficient in and would respectfully request this effort
cease.

Further as stated numerous times throughout th1s response, we are always happy to implement or
revise any policy and procedure to ensure compliance w ith any applicable law, rule or regulat ion and
would agree with the recomme ndation on the third bullet point on Page 15 of the draft report .

If you nee d any add itional clarification, you can reach me on my cell phone anytime at (307)321·4587. 

Sincerely, 

Gwynn G. Bartlett 

Secretary/Treasurer- CCCAC
§.XUtltctt ­
                                                         Page 4 of 4
                                                                                                              Page 1 of 9


                  APPENDIX C: STATE AGENCY COMMENTS


     ~
     ~         Wyoming
                                Commit to your health.
     l"~"''l. ,. Department     viHit www.health wyo gov
     ~ ;;      ofHealth

Thomas 0. Forslund, Director                                                              Governor Matthew R Mead

                                                   May 31,2013

                                                                                               Ref: WB-2013-1 87

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12th Street, Room 0429
Kansas City, MO 64106

Re: Response to Draft Report Number: A-07-11-02766

Dear Mr. Cogley:

      This letter and attachment are in response to the Office of Inspector General (OIG) Draft Report
 Number: A-07-11-02766, dated April 1, 2013, entitled "Not All Community Services Block Grant Costs
 Claimed on Behalf of the Carbon County Community Action Committee for the Period October 1, 2008
 Through September 30, 2010 Were Allowable." The Wyoming Department of Health (WDH), Public Health
Division, Community Services Program (CSP) appreciates the opportunity to respond and aims to resolve any
issues quickly.

    Any additional clarification regarding this response can be directed to Tricia Dean, Manager of the
Community Services Program, at (307) 777-8940 or by email at !fiqa.(jeanra:wvo.gov.




                                                    0~
                                                     orely, ~.,/~""..
                                                         Wendy E. Braund, MD, MPH, MSEd, FACPM
                                                         State Hea th Officer and Senior Administrator
                                                         Public Health Division
                                                         Wyoming Department of Health

Attachment: Wyoming Dcpartm.e nt of Health Response to the Office of Inspector General Draft Report
            A-07-1 1-02766

WB/TD/td

c:     Gwynn Bartlett, Carbon County Community Action Committee
       Deanna Greene, HIP AA Compliance Officer
       Robert Peck, ChiefFinancia1 Officer, Wyoming Department of Health


                              State Health Officer • Public Health Division
                        6101 Yellowstone Road, Suite 420 • Cheyenne WY 82002
                       E-Mail: wdh@wyo.gov • WEB Page: www.health wyo.gov
            Toll Free 1-866-571-0944 • Main Number (307) 777-6340 • FAX (307) 777-8264
                                                                                                          Page 2 of 9





      Wyoming Department of Health Response to the Office oflnspector General Draft Report
                                       A-07-1 1-02766

Community Services Program (CSP) is responsible for administering the funding from the United
States Department of Health and Human Services (HHS), Administration fo r Children and Families
(ACF), Office of Community Services (OCS) for the Community Opportunities, Accountability, and
Traini ng and Educational Services Act of 1998 (COATES Act), Public Law 105-285, reauthorized
as the Community Services Block Grant (CSBG) to alleviate the causes and conditions of poverty
within our communities. In Wyoming, fund ing flows to all 23 counties and the Wind River
Reservation through 9 Local Governments, 5 private Community Action Agencies (CAAs), 3 private
Non-CAAs, and I Tribal Organization. Each of the eligible entities are required to operate under a
tripartite board and provide services and activities addressing education, emergency services,
employment, health, housing, income management, linkages, nutrition, and self-sufficiency.
Services are provided through approximately 150- 175 service providers. CSP also administered the
American Recovery and Reinvestment Act of 2009, Public Law 111 -5 (ARRA) which provided
additional funding for CSBG related services.

                          GENERAL COMMENTS AND INACCURACIES

The CSBG grant period for formula funding is October I - September 30 each year and the CSBG
Set-Aside Contracts are awarded for the period of May 1 - September 30. Separate applications,
contracts, monthly financial and programmatic reports, and payment vouchers are required. CSBG
Set-Aside funding, contracts, or projects are not addressed in the draft report which could provide
answers to some items in question.

ARRA funds were allocated for the period of October l, 2009 through September 30, 20 I 0 rather
than beginning July 1, 2009. The ARRA Contracts were effective starting October I, 2009,
therefore no ARRA funds were expended prior to this time and no ARRA activities or supportive
services were provided before the effective date.

CSP did allow tripartite boards to increase eligibility for CSBG services to up to 200% of the
Federal poverty level, for both FFY 201 0 CSBG and ARRA. The determination to raise the
eligibility level beyond the normal CSBG requirement, of up to 125% of the Federal poverty level,
was at the discretion of each local tripartite board.

Carbon County Community Action Committee (CCCAC) is a local government eligible entity but is
described as a non-profit CAA in the draft report. CCCAC is a CSBG Tripartite Governing Board
operating under Carbon County, the local government. This eligible entity designation is allowable
as described in Section 676(B)(b) of the CSBG Act. Throughout the draft report, CCCAC is also
incorrectly identified as Carbon County Community Action Partnership.

The report states CCCAC received a total amount of $302,390 in CSBG and ARRA funding during
the review period; this amount is incorrect. CSP awarded CCCAC, through contractual agreements,
CSBG allocations in the amount of $80,572 in formula funding and $16,100 in Set-Aside totaling
$96,672 during FFY 2009; $84,774 in formula funding and $ 17,500 in Set-Aside totaling $102,274
in FFY 2010; and $139,521 in ARRA funds during FFY 201 0. CCCAC did return $2,476 of the

  Wyoming Department of Health Response to the Office of Inspector General Draft Report: A-07- 11-02766
  Page 1 of 8
                                                                                                        Page 3 of 9





ARRA funds making the total CSBG and ARRA allocation, during the period of October 1, 2008
through September 30, 2010, $335,99 1.

In the Federal Requirements Section of the draft report, it is again suggested that CCCAC is a non­
profit organization, rather than a local government entity. According to Federal Regulation 45 CFR
74.27, the cost principles of allowable and unallowable expenditures for Local Governments are
determined in accordance with 2 CFR Part 225 (OMB Circular A-87) instead of 2 CFR Part 230
(OMB Circular A- 122) as stated. CSP realizes that the non-profit service providers are stilJ required
to abide by 2 CFR Part 230.

In the Methodology Section, it is stated that the CSBG State Management Plans (State Plan) for FFY
2008, 2009, and 201 0 were reviewed. The FFY 2008 CSBG State Plan was for the period of
October I , 2007 through September 30, 2008 which is not applicable to the time frame being
reviewed. The ARRA State Plan was also reviewed. It is important to note that the time frame
indicated on the ARRA State Plan was for the grant term of July I , 2009 through September 30,
2010.
                         STATEMENTS ADDRESSING FINDINGS

CSP understands the claim against CCCAC regarding unallowable costs associated with $64,7 11 in
CSBG and $100,3 10 in ARRA funds totaling $ 165,021 and will specifically address each concern.
In addition, CSP real izes that costs totaling $83,320 have yet to be tested. Due to the variance in
grant award amounts, this amount may be increased to include the additional $33,601 not originally
considered as CSBG funding, making the total $1 16,92 1. It is also important to note that CSP does
not have the original client application files or reimbursement billing documentation from Carbon
County and can only make considerations according to the information provided.

FINDING 1: UNALLOWABLE COSTS

Inadequately Supported Eligibility Determinations

As st ated on Page 5, CCCAC claimed $163,192 ($64,306 in CSBG and $98,886 in ARRA) that
was unallowa ble because t he CCCAC service providers distributed these funds to clients
without adequately supporting the eligibility determinations. Specifically, service providers
did not always collect and maintain documentation to support clients' application information
r egarding identification, wages, residency, or family members residing with the applicant.
CSP does not agree with this finding.

According to the draft report, Boys & Girls Club; Community Resource Center; and Public Health ­
Emergency Health; have been identified as not providing documentation to support their billings
with the names of recipients of services; thus, these subcontractors could not demonstrate how they
enforced the required 125% poverty level threshold. All tripartite boards received notification of the
change to the allowable poverty threshold for this period of time which was increased to 200% after
the FFY I 0 State Plan was published. CSP does not agree with this finding for the following
reasons:



 Wyoming Department of Health Response to the Office of Inspector General Draft Report: A-07-11-02766
 Page 2 of8
                                                                                                         Page 4 of 9





  I . The Boys & Girls Club received CSBG funding for a position to provide direct services to
      youth for computer literacy and internet safety classes. An average of 100 youth attended the
      club each day with a high percent of those children being part of low-income families.
      Membership appl icatio ns containing family income, whether or not they reside in low- income
      housing, eligibi lity status of free or reduced school lunches, and time logs recording their
      attendance are available on-site. However, individual youth names would not be included on a
      bill to CCCAC fo r reimbursement of the funded position.

 2. The Community Resource Center received CSBG funding to provide tobacco, substance abuse,
    and violence education programs to low-income youth. These educational programs were
    presented to children at generally low-income schools receiving Title I assistance. A school is
    eligible to become a Title l Schoolwide Program when the poverty level, (determined by free
    and reduced meal counts, Aid for Dependent Children [AFDC], census, or Medicaid) is at or
    above 40%. Title 1 funds aim to bridge the gap between low-income students and other
    students. The U.S. Department of Education provides supplemental fundi ng to local school
    districts to meet the needs of at-risk and low-income students. A list of children's names
    would not be necessary as all children were given the opportunity to attend the presentations
    rather than segregating them according to their family's income status.

 3. Public Health - Emergency Health received CSBG funding to provide emergency medical,
    dental, eye care, and pharmaceutical assistance to low-income people. Clients were required to
    complete an application with a financial affidavit and Public Health staff verified and
    maintained thi s information in locked files on-site. When submitting bills to the Tripartite
    Board, names must be abstracted since the payments are made through the local government
    and become public property. This is to ensure Health Insurance Portabili ty and Accountability
    Act (HIPAA) regulations are not violated.

The draft report also states that Publ ic Health - Parenting and Western Wyoming Family Planning
supported their billings with names of recipients but did not provide documentation of recipient
income and thus could not demonstrate how they enforced the 125% poverty level threshold. As
stated earlier, the allowable poverty threshold for this time period is 200%. CSP also did not agree
with this finding for the following reasons:

  I. Public Health - Parenting received CSBG funding to provide parenting skills classes to low­
     income parents. Even though the majority of the parents enrolled are court ordered, an
     application with financial information is required and maintained on-site. Verification in the
     client files proves that the 200% poverty level threshold was enforced.

 2. Western Wyoming Family Planning received CSBG funding to provide pap smears to low­
    income, uninsured women. Income verification is conducted during the application process
    and maintained in locked files on-site. Verification of abiding by the 200% poverty level
    threshold can be found in the individual client files.

Another item addressed by the report states that CCCAC awarded funds to daycare providers to
assist with childcare. In the billings submitted for reimbursement, names of recipients were not
attached and therefore could not demonstrate how they enforced the 125% poverty level threshold.

 Wyoming Department of Health Response to the Office of Inspector General Draft Report: A-07-1 1-02766
 Page 3 of8
                                                                                                         Page 5 of 9





Again, the allowable poverty tlu·eshold for this period of time was 200%. CSP does not agree with
this finding. Each daycare center is capable of producing the requested information to include the
names ofthe children receiving assistance as well as family financial detail on-site.

According to the draft report, a judgmental sampling of 30 Public Health - Emergency Health
vouchers (totaling $5,586) were chosen for review from the 530 submitted to determine whether
recipients' applications were adequately supported by documentation. Through this process, it was
discovered that 25 of the 30 program vouchers (totaling $4,734) submitted were not supported by
either recipients' names or income. This equated to a payment error rate of 85% ($4,734/$5,586).
Detailed testing of the remaining 500 vouchers (totaling $83,320) was not tested and is considered
later in the report as potentially unallowable costs. CSP does not agree with this finding as names
cannot be attached to the billing for reimbursement due to HIPAA.

Big Brothers Big Sisters, Boys and Girls Club, Community Resource Center, and Public Health have
each been identified in this draft report with not supporting their ARRA billings for reimbursement
with names of recipients of services and therefore could not demonstrate how they enforced the
200% poverty level threshold establ.ished by statute. CSP does not agree with this finding for the
following reasons:

  1. Big Brothers Big Sisters received ARRA funding for 2 part-time positions to provide direct
     services for the youth mentoring program in Rawlins and an after-school program in Saratoga.
     Even though a high percentage of youth who attend the center come from low-income families,
     the individuals in these positions must tend to all children equally. Individual youth names
     would not be included on a bill to CCCAC for reimbursement of the funded positions.

  2. Boys and Girls Club received ARRA funding for a position to provide direct services for a
     youth development program. As with Big Brothers Big Sisters, this individual cannot limit
     their time to only children of low-income families. Listing individual youth names on a bill to
     CCCAC for reimbursement of the position would not be appropriate.

  3. Community Resource Center received ARRA funding to provide a Resources Directory. This
     is a publication avai lable to the general public but is located within the local social services
     offices where low-income people go to obtain services. It would be literally impossible to
     include nan1es of all of the low-income individuals who obtained, used, and/or benefitted from
     this directory.

 4. Public Health - Meals received ARRA funding to provide congregate and home delivered
    nutritious meals to low-income seniors and disabled individuals. Public Health maintained an
    application on-site with income detail and abided by the required poverty guidelines. Names
    were purposely not provided to ensure client privacy.

Public Health -Dental and Western Wyoming Family Planning supported their billings with the
names of recipients of services but could not demonstrate how they enforced the 200% poverty level
threshold. CSP did not agree with this finding for the following reasons:



 Wyoming Department of Health Response to the Office of inspector General Draft Report: A-07-1 1-02766
 Page 4 of8
                                                                                                           Page 6 of 9





  I. Public Health - Dcnta] received ARRA funding to provide dental assistance to low-income,
     uninsured or underinsured, seniors. Income verification is conducted when applying for
     services and is maintained in locked files on-site. Verification of abiding by the 200% poverty
     le vel threshold can be found in the individual client files.

  2. Western Wyoming Family Planning received ARRA funding to provide testing and
     educational material fo r sexually transmitted diseases and human immunodeficiency virus to
     low-income individuals. Income verification is conducted during the application process and
     maintained in locked files on-site. As with Public Health, the individual client charts contain
     verification that the 200% poverty level threshold was enforced.

The dra ft report also states that Encampment Preschool did not require adequate documentation to
verify residency or the number of family members listed on the recipients' application. Without the
client files, CSP cannot agTee or disagree to this finding.

Additional Deficiencies at Service Provider Level

As stated on Page 7, some of the unallowable costs already discussed had additional
deficiencies that would have led to recommended disallowances of those costs. Therefore, the
dollar amounts associated with each of the fmdings listed below a re already included in the
amounts questioned in the " Inadequately Supported Eligibility Determination" section.

Unapproved Transfers of Grant Funds - The draft report alleges that CCCAC transferred $9,063
($879 in CSBG and $8,184 in ARRA funds) between service providers without obtaining prior
written approval from CSP. CSP does not agree with this fin ding. All budget line item changes for
a specific service provider, as well as transfers between service providers, were not made without
prior authorization from CSP. It is common practice to authorize these changes through email as
timing is essential. Once changes are approved, only CSP has the authority to change the budget
detail in cmReporter, which was the online reporting system used for CSBG and ARRA
expenditures. The final budgets documented in cmReporter provide further documentation that CSP
approved these transfers.

Inadequate Documentation of Expend itures - The draft report alleges that CCCAC did not maintain
adequate documentation for $4,643 ($2,543 in CSBG and $2, 100 in ARRA funds) for expenditures
from service providers. It fu rther states that Microsoft Word and Excel invoices were created to
support these expenditures but original source documentation, such as service provider invoices,
were not maintained. CSP cannot agree or disagree to this fi nding without being provided specific
details regarding the serv ice providers, projects, and dates.

Unallowable Entertai nment Costs - The draft report alleges that Boys and Girls Club and
Communi ty Resource Center claimed $4,00 1 ($500 in CSBG and $3,501 in ARRA funds) to provide
entertainment. CSP docs not agree with this finding. Both service providers used music is an
alternative method of teachir.g children rather than a form of entertainment. It is a highly acceptable,
cultural and generational form of maintaining their attention which results in a greater amount of
information retained from these educational presentations.


  Wyoming Department of Health Response to the O ffice of Inspector General Draft Report: A-07- 11-02766
  Page 5 of 8
                                                                                                         Page 7 of 9





Costs Previously Paid by Other Funding Sources -The draft report alleges that supplanting occurred
when Boys and Girls Club used $2,381 in ARRA funds for its "I'm a Winner" children's program
and Community Resource Center used $98 in CSBG funds forT-shirts and a membership. In both
cases, these projects were funded by another source in prior years and those funding sources were
still available at the time of these events. CSP can not agree or disagree to this finding without
additional documentation. CCCAC states that these funds were used to increase the levels and types
of services and activities which would be supplementing rather than supplanting. Specifically, the
new services included the provision of food baskets for a local agency and staple items for the local
Women, Infant, and Children's (WIC) program.

Inconsistent Allocations to Community Services Block Grant Recovery Act Funding - The draft
report alleges that Big Brothers Big Sisters claimed fringe benefit costs in the amount of $727 to
ARRA when the salaries and wages attached with these benefits were not paid with ARRA funding.
In accordance with the CCCAC response, CSP agrees with this finding and will provide grant
management training to the board to rectify any misunderstandings.

Inadequate Policies and Procedures - The draft report alleges that the procedural deficiencies
occurred as a result of inadequate policies and procedures for CCCAC. In accordance with the
CCCAC response, CSP will assist CCCAC in revising, establishing, and strengthening policies and
procedures to ensure compliance.

FINDING 2: OTHER UNALLOWABLE PAYMENTS

As stated on Page 9, CCCAC claimed an additional $1,829 ($405 in CSBG and $1,424 in
ARRA) that was unailowable due to a variety of errors, including duplication of claims, lack of
documentation, and services that were claimed even though they had previously been funded
under another funGing sGur.:;;.

Public Health - Emergency Health - The draft report states that Public Health - Emergency Health
overcharged the CSBG award by $405; $260 because it made duplicate claims for 3 vouchers, and
$145 because it did not document all of the expenditures it charged to the award. Further, the
amount of costs reflected in the subcontractor's vouchers did not reconcile to the amounts reported
to CSP. Without further documentation and specific details regarding this finding, CSP cannot agree
or disagree.

Public Health - Meals - The draft report states that Public Health - Meals did not have adequate
documentation to support claims made by two restaurants totaling $1 ,295 in ARRA funding. The
vendor invoices submitted for payment of meals provided did not match the vendor tracking system
for meals provided. Again, without further documentation and specific details, CSP cannot agree or
disagree with this finding.

Public Health - Dental - The draft report states that Public Health - Dental charged ARRA $129 for
dental services that had previously been paid by Medicaid. ln accordance with CCCAC, CSP agrees
with this finding. This was not intentional, as Public Health did not know that the client had
Medicaid at the time of service. As soon as this issue was discovered, CCCAC reimbursed CSP for
$129.

 Wyoming Department o ~ Health Response to the Office of Inspector General Draft Report: A-07-11-02766
 Page 6 of8
                                                                                                         Page 8 of 9





FINDING 3: POTENTIALLY UNALLOWABLE COSTS

As discussed earlier in this response and according to the draft report, $83,320 of Public
Health - Emergency Hea lth claims were reported as potentially unallowable costs. Due to the
judgmental sampling of 30 vouchers, in which an 85% payment error rate was calculated, it is
suggested that the arlditicr.al 500 claims totaling $83,320 are potentially unallowable costs.
CSP maintains its position and docs not agree to this finding.

Public Health has a stringent application process which requires an applicant to complete an
application, provide a photo idemification which is copied and maintained in the ftle, sign a HIPAA
release form, and complete a fi nancial affidavit including income verification. Applicants also
provide proof of residency, and they are required to visit the Department of Family Services where
their income eligibility is determined through the poverty guidelines. Once all forms have been
completed, if the applicant is eligible, they are qualified to become a client through Public Health
and receive necessary services. Client names are purposely not attached to invoices for
reimbursement to protect the client's privacy.

FINDING 4: .IN ADEQU~TE INTERNAL CONTROLS

Inadequate Monitorln.g

As stated on Page I I of the draft report, CCCAC did not perform on-site monitoring for their CSBG
and ARRA service providers to evaluate fiscal and performance activities and to determine program
compliance with all applicable laws, rules, regulations, and policies. In accordance with CCCAC,
CSP agrees to this f;nding. CCCAC has hired a contractor to provide on-site monitoring for each of
the service providers.

No Separate Accounting; of R ecovery Act Funds

Page 12 of the draft report states that CCCAC did not track and report separately on expenditures of
funds made available by AR....~A. In accordance with CCCAC, CSP does not agree to this finding.
CCCAC maintains that even though the County Treasurer erroneously noted an incorrect account
number in the County's financial system when receipting the funds, there was never any misuse of
funding. Further, separate monthly reports were entered into cmReporter for CSBG, CSBG Set­
Aside, and ARRA during this time period.

Inadequate Board Member Participation

Page 12 of the draft repon states that CCCAC did not adequately represent all groups in the
community as fi ve board members (2 members representing the low-income category, 2 representing
the community category, and I representing the elected category) had not attended 3 or more
consecutive board meerir.gs curing the July 2009 through August 2010 timeframe. In accordance
with CCCAC, CSP does not agree to this finding. CCCAC made numerous attempts to contact the
absent board members even though it is not addressed in the board's minutes as an action item. In
addition, CCCAC has implemented changes to this process and is actively seeking new members.


 Wyoming Department of Hea!th Response to the Office of Inspector General Draft Report: A-07- 11-02766
 Page 7 of8
                                                                                                          Page 9 of 9





Uninsured Bank Denosits

Lastly, Page 12 of the draft report states that on more than one occasion, the CCCAC's CSBG and
ARRA accounts exceeded the Federal Deposit Insurance Corporation (FDIC) daily limit of
$250,000. As a result, funds that exceeded the FDIC limits were subject to an increased risk of loss
in the event of a bank failure. CSP does not agree to this finding. CCCAC indicates that their bank
accounts are insured and amounts in excess are collateralized by the bank. CSBG formula and Set­
Aside funding totaled $84,774 in FFY 09, $102,274 in FFY 10, and $139,521 in ARRA funding.
Payments are distributed quarterly but even if the entire allocations for FFY 10 and ARRA, which
ran concurrently, were made in one lump sum the total amount was $241 ,795 so it seems unlikely
that the accounts would ever be over the $250,000 limit.

                                         RECOMMENDATIONS

The draft report suggests that CSP make a fi nancial adjustment of $165,02 1 to HHS, OCS, ACF for
unallowable costs claimed by CCCAC during the FFY 10 CSBG and ARRA terms. CSP does not
concur with this recommendation as not all findings in this report appear legitimate. Further, CSP
respectfully requests that in the event it is determined that any adjustment be made, that it be
deducted from future CSBG all ocations to CCCAC. Carbon County is considered rural and serves a
low-income population of approximately 12% with CSBG funding through a limi ted number of
service providers. Many of these service providers would be non-existent without CSBG funding
and a repayment requirement may force them to cease services permanently, ultimately hurting the
same people who are presently benefitting from CSBG activities.

The draft report also suggests that CSP work with HHS, ACF, OCS to determine whether the
eligibility determinations associated with the $83,320 were correctly made and make a financial
adjustment for any costs determined to be unallowable. While any assistance from HHS, ACF, OCS
is always welcomed, CSP does not concur with this recommendation and further believes the
eligibility determi nations to be sufficient and does not anticipate an adjustment will be required.
However, as stated above, CSP asks that you take into consideration our request regarding any
necessary repayment.

Lastly, the draft report suggests that CSP ensure that CCCAC either establish or strengthen policies,
procedures, and related internal controls regarding eligibility determination, documentation, funds
management, and oversight and monitoring of CSBG. CSP concurs with this recommendation and
vows to provide training and technical assistance to accomplish these requirements. While CCCAC
has already implemented some changes such as hiring a consultant to perform service provider
monitoring and actively attempting to recruit new board members, CSP agrees to provide training
and technical assistance for the remaining suggestions. Specifically, CSP will provide CCCAC
grant management traini ng; assist in revising their policies and procedures; develop and implement a
generalized client application witn a required documentation list to aid in the intake process, assist in
developing and implementing a service provider reimbursement process that satisfies all applicable
laws, regulations, policies, and rules; provide any requested training and technical assistance related
to CSBG in a reasonable amount of time; and conduct a special review ofCCCAC during FFY 2014
to ensure compliance of CSBG and the newly implemented processes.


 Wyoming Department of Health Response to the Offi ce of Inspector General Draft Report: A-07-11 -02766
 Page 8 of 8
